<html>
<title> - HIGH RISK INDIAN PROGRAMS: PROGRESS AND EFFORTS IN ADDRESSING GAO'S RECOMMENDATIONS</title>
<body><pre>[Senate Hearing 115-235]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 115-235

  HIGH RISK INDIAN PROGRAMS: PROGRESS AND EFFORTS IN ADDRESSING GAO'S 
                            RECOMMENDATIONS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 13, 2017

                               __________

         Printed for the use of the Committee on Indian Affairs






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

30-089 PDF                     WASHINGTON : 2018 









                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JOHN McCAIN, Arizona                 JON TESTER, Montana,
LISA MURKOWSKI, Alaska               AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho                    CATHERINE CORTEZ MASTO, Nevada
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 13, 2017...............................     1
Statement of Senator Cortez Masto................................    69
Statement of Senator Franken.....................................    67
Statement of Senator Hoeven......................................     1
Statement of Senator Udall.......................................     2

                               Witnesses

Black, Michael S., Acting Assistant Secretary, Indian Affairs, 
  U.S. Department of the Interior................................    46
    Prepared statement...........................................    47
Dearman, Tony, Director, Bureau of Indian Education, U.S. 
  Department of the Interior.....................................    56
    Prepared statement...........................................    58
Emrey-Arras, Melissa, Director, Education, Workforce, and Income 
  Security Issues, U.S. Government Accountability Office.........     4
    Prepared statement...........................................     6
Weahkee, Rear Admiral Michael D., Acting Director, Indian Health 
  Service, U.S. Department of Health and Human Services..........    51
    Prepared statement...........................................    53

                                Appendix

Floyd, Hon, James R., Principal Chief, Muscogee (Creek) Nation, 
  prepared statement.............................................    79
Response to written questions submitted by Hon. Steve Daines to 
  Melissa Emrey-Arras............................................    80
Response to written questions submitted by Hon. John McCain to 
  RADM Michael D. Weahkee........................................    88
Response to written questions submitted by Hon. Tom Udall to:
    Michael S. Black.............................................    84
    Tony Dearman.................................................    81
    RADM Michael D. Weahkee......................................    86

 
  HIGH RISK INDIAN PROGRAMS: PROGRESS AND EFFORTS IN ADDRESSING GAO'S 
                            RECOMMENDATIONS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 13, 2017


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:59 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Today, the Committee is holding an important 
hearing on follow up to our May 17, 2017 hearing on the 
Government Accountability Office, GAO, and their High Risk 
List, which included for the first time, three Indian programs.
    In this hearing, we will examine the progress of the Bureau 
of Indian Affairs, the Bureau of Indian Education, and the 
Indian Health Service in addressing the GAO's open 
recommendations for these agencies programs. We want all of 
these programs to be successful.
    I want to thank the GAO for bringing forward their 
recommendations and the numerous challenges facing these 
Federal Indian programs, not just identifying the problem but 
also providing recommendations.
    We want to work with the agencies in finding a path forward 
on these issues. Any further guidance from the GAO is welcome. 
That is why we appreciate having you here today. I also want to 
thank the witnesses for getting their testimony in on time.
    On February 15, 2017, the GAO issued its biannual High Risk 
List, which included Indian energy, Indian education, and 
Indian health care. These programs were considered high risk 
because they were vulnerable to fraud, waste, abuse and 
mismanagement.
    These programs are vitally important to Native Americans. 
They affect the safety of school buildings and facilities, the 
quality of health care, education, and the advancement of 
Indian energy development projects.
    These high risk programs put the health and safety of 
Native Americans at risk. By implementing the GAO 
recommendations, the risks identified should be diminished. 
Likewise, the affected agencies can be strengthened in 
delivering programs and services to Native Americans.
    According to the GAO, there are 23 open recommendations for 
Indian education, 14 open recommendations for Indian health and 
13 open recommendations for Indian energy. The GAO stated in 
its previous testimony that it uses five criteria to determine 
if a program should be removed from the High Risk List.
    To be removed from this list, the agency must demonstrate 
leadership commitment, agency capacity and resources, an action 
plan, monitoring and, of course, progress.
    We will continue to closely monitor the progress and 
commitment of these agencies as they work with the GAO in 
efficiently closing out the open recommendations. I also expect 
any future recommendations by the GAO will be taken seriously 
and implemented by the agencies.
    I know there is still more work to be done by the agencies; 
however, I am encouraged by recent updates by the GAO that 
these agencies are making progress in satisfying the open 
recommendations, especially at BIE and IHS.
    I am still concerned that there are open recommendations 
and also am concerned about progress in regard to Indian 
energy.
    Again, I welcome our witnesses today and look forward to 
hearing what progress we have made and also how we can make 
more progress. Rest assured, this will not be the last hearing 
on this subject.
    With that, I will turn to Vice Chairman Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Hoeven.
    Here at the beginning, I would like to recognize now the 
Navajo Nation Council delegate, Walter Phelps from Arizona, who 
is attending this hearing today.
    This hearing starts where we left off after our first 
hearing on the GAO High Risk Report in May. Thank you for 
calling GAO, the BIE and the IHS back here so the agencies can 
update the Committee on their progress towards addressing GAO's 
open recommendations so that we can examine how and whether 
they have been adequately focusing resources and expertise to 
improve their Indian programs.
    Before I get into discussing the high risk designation, I 
want to share a bit of information. The Santa Fe Indian School 
has a graduation rate of 96 percent; 88 percent of their 
students go on to attend a post secondary institution.
    At the Kiawah Public Health Corporation, a longer 30-minute 
visit standard is making visits meaningful for patients and 
providers. In the Albuquerque service area, providers are 
tracking patient wait times electronically and deploying 
customer satisfaction surveys to ensure they are meeting the 
needs of their patients.
    A team of pre-engineering students at the Southwestern 
Indian Polytechnic Institute recently competed against 20 
colleges from across the Country winning a national NASA 
robotics competition.
    These success stories show the persistence and tenacity of 
tribal communities. They underscore the need for better sharing 
of best practices within Federal Indian programs and most of 
all, they should remind this Committee that tribal communities 
can and do succeed despite the agency level administrative 
shortcomings they face.
    I would ask my colleagues here today to imagine how much 
more could be accomplished if their Federal partners were 
offering them needed support instead of getting in their way. 
For years, GAO's work has provided evidence of something many 
tribal communities have long reported, that bureaucratic 
barriers at agencies like the BIA, the BIE and the IHS reduce 
the effectiveness of Indian programs across the Federal 
Government.
    BIE schools have reported that agency hiring directives 
continue to prevent them from filling key staff positions. IHS 
facilities in the Great Plains are still in CMS certification 
limbo as Native patients face uncertainty.
    The lack of necessary modern IT infrastructure affects 
everything from education to energy, grinding some tribal 
communities to a bureaucratically-induced halt. Unfortunately, 
these agencies have not taken a proactive approach to 
responding to tribal concerns. This high risk designation 
proves they were not committing themselves to resolving GAO's 
findings.
    I read the GAO's testimony today and was pleased to learn 
that BIA, BIE and IHS programs have benefited from the 
additional scrutiny put on them since they have been labeled 
high risk. It appears progress can only be made when Congress 
keeps the pressure on. Mr. Chairman, I appreciate you doing 
that. That is why I appreciate the Chairman's follow through on 
this topic.
    The members of this Committee must do all we can to address 
the Federal Government's shortcomings to improve its 
accountability and administration of Indian programs. I am 
looking forward to hearing what progress has been made to 
address GAO's recommendations. I thank the Federal witnesses 
for being here today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Vice Chairman Udall.
    Are there other opening statements?
    [No audible response.]
    The Chairman. Then we will turn to our witnesses.
    Our witnesses today are: Ms. Melissa Emrey-Arras, Director, 
U.S. Government Accountability Office, Washington, D.C.; Mr. 
Michael S. Black, Acting Assistant Secretary, Indian Affairs, 
U.S. Department of the Interior; Rear Admiral Michael D. 
Weahkee, Acting Director, Indian Health Service, U.S. 
Department of Health and Human Services, Rockville, Maryland; 
and Mr. Tony Dearman, Director, Bureau of Indian Education, 
U.S. Department of the Interior.
    Ms. Emrey-Arras. we will turn to you.

          STATEMENT OF MELISSA EMREY-ARRAS, DIRECTOR, 
    EDUCATION, WORKFORCE, AND INCOME SECURITY ISSUES, U.S. 
               GOVERNMENT ACCOUNTABILITY OFFICE; 
         ACCOMPANIED BY FRANK RUSCO, DIRECTOR, NATURAL 
   RESOURCES AND ENVIRONMENT TEAM; AND KATHY KING, DIRECTOR, 
                          HEALTH CARE

    Ms. Emrey-Arras. Thank you for inviting me here today to 
discuss a new area we added to our High Risk List this year: 
improving Federal management of programs that serve tribes and 
their members. We added this area to our High Risk List this 
past February in response to serious problems in Federal 
management and oversight of Indian education, energy resources 
and health care programs which were highlighted in several 
prior reports.
    Overall, our High Risk Program has served to identify and 
help resolve serious weaknesses in areas involving substantial 
resources and providing critical services to the public. Today, 
I will focus on Interior and HHS's efforts to address our 
recommendations.
    In our High Risk Report, we cited nearly 40 recommendations 
that were not implemented. Since then we have made an 
additional 12 recommendations in two new reports on BIE school 
safety and construction, published in May of this year. While 
Interior and HHS have taken some steps to address these 
recommendations, only one has been fully implemented.
    We are happy to report that we just closed a recommendation 
we made to HHS to develop specific agency-wide standards for 
patient wait times. HHS developed these standards and published 
them on the IHS Indian Health Manual website just last month. 
This recommendation is now closed as fully implemented. The 
other recommendations, however, remain open.
    In some cases, the agencies have made plans or taken 
preliminary steps to address the recommendations, but have not 
fully implemented them. For example, in the area of Indian 
education, we recommended in 2014 that Interior develop 
procedures to oversee school spending for major programs. In 
May, the BIE director noted that the agency planned to complete 
this recommendation by the middle of 2019. Last month, 
officials reported to us that they had drafted procedures but 
further review and revision were needed before the procedures 
could be finalized and implemented.
    Also, in some cases, the agencies have yet to provide us 
supporting documentation that they have fully implemented our 
recommendations. Such documentation is needed for us to verify 
that the agency actions have occurred.
    For example, in the area of Indian energy, we recommended 
that BIA take steps to complete its GIS mapping module in its 
database to identify who owns and uses resources. On August 31, 
BIA officials told us that they had added this mapping 
capability to the database but the officials did not provide us 
with the supporting documentation to enable us to determine if 
the GIS capability addresses our recommendation. We are now 
working with BIA to obtain this needed documentation to 
determine if this function will comply with our recommendation.
    In other cases, however, an agency may not have taken any 
action on our recommendations. For example, in the area of 
Indian health care, IHS had agreed with two of our 
recommendations to make the allocation of Purchased/Referred 
Care (PRC) funds more equitable but has not yet taken action to 
implement them.
    Our experience has shown that among the key elements needed 
to make progress in high risk areas is top level attention by 
the Administration and agency leaders. As the Chairman 
mentioned, we have five key elements we look at to decide 
whether or not an area should be removed from our High Risk 
List. These are: leadership commitment; capacity, which is 
having the people and resources to resolve the risk; having a 
corrective action plan; monitoring; and demonstrating progress.
    If the agencies can demonstrate significant improvement in 
these areas, they can be taken off the High Risk List. 
Likewise, individual issues can be removed if sufficient 
progress is made. For example, if sufficient progress is made 
in Federal management of Indian energy programs, Indian energy 
issues can be removed from the list, even if Indian education 
and health care issues remain on the list.
    We plan to continue monitoring the agencies' efforts to 
address the approximately 50 recommendations that remain open. 
We look forward to continuing our work with this Committee in 
overseeing Interior and HHS to improve services to tribes and 
their members.
    My colleagues and I would be happy to answer any questions 
you may have.
    [The prepared statement of Ms. Emrey-Arras follows:]

    Prepared Statement of Melissa Emrey-Arras, Director, Education, 
 Workforce, and Income Security Issues, U.S. Government Accountability 
                                 Office
                                 
                                 
                                 
                                 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                
                                 
                                 
                                 
                                 
 

    The Chairman. Thank you.
    Next is Acting Assistant Secretary Black.

        STATEMENT OF MICHAEL S. BLACK, ACTING ASSISTANT 
       SECRETARY, INDIAN AFFAIRS, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Black. Good afternoon, Chairman Hoeven, Vice Chairman, 
and members of the Committee.
    Thank you for the opportunity to come back and present an 
update on behalf of the Department of Interior regarding Indian 
Affairs' role in the development of Indian energy and our 
continued commitment to address the high risk designation in 
the Government Accountability Office High Risk Report.
    As we stated in my testimony in May, the Department agreed 
with GAO's recommendations and we continue to address the 
recommendations in order to help foster energy independence 
among tribes who are developing their resources.
    As the High Risk Report notes, GAO made 14 recommendations 
to the Bureau of Indian Affairs via three reports. I am happy 
to note that we have made some progress on a number of those 
recommendations and plan to submit closure packages for those 
recommendations in the near future.
    I acknowledge that we have a significant amount of work to 
do. My testimony today will update the Committee on our 
progress towards implementation of the various recommendations.
    GAO recommended the development and implementation of a GIS 
mapping module that could be included in our Trust Asset 
Accounting Management System or TAAMS. In response, we have 
developed a GIS Map Viewer to work along with our TAAMS system.
    The Viewer was successfully tested and deployed on August 
31, 2017. A closure package for this recommendation has been 
signed and is in the process of being submitted for 
consideration of closure.
    In addition, we will be providing a demonstration of that 
system to GAO tomorrow in order to better demonstrate the 
capabilities of the system.
    GAO has also recommended that we provide additional 
guidance related to the Tribal Energy Resource or TERA 
Agreements. As a result, the Office of Indian Energy and 
Economic Development has reviewed the tribal comments it has 
received and found that the inherently Federal functions is one 
of the number one issues that tribes have identified in need of 
clarity.
    In consultation with Department's Office of Solicitor, it 
was determined that the term can only truly be defined on a 
case-by-case basis when tribes have made a request to take over 
a specific Federal program, function, service or activity.
    In order to provide additional guidance, IEED, our Indian 
Energy and Economic Development Office, has placed on its 
website additional guidance related to TERA for those tribes 
interested in assuming energy-related functions.
    In addition, I have talked to my staff in the Indian Energy 
and Economic Development Program about the possibility of 
developing a primer or some type of guidance on conducting 
additional training opportunities for tribes interested in 
pursuing TERA.
    In order to respond to the GAO's recommendation to include 
other Federal agencies in the activities of the Indian Energy 
and Economic Development Program or IESC Service Center, we 
have been working to implement memoranda of understanding or 
MOUs with the appropriate department bureaus and other Federal 
agencies involved in development of Indian energy and mineral 
resources and to define roles and responsibilities regarding 
the development of those resources on trust lands.
    MOUs are being developed with Fish and Wildlife, the 
Environmental Protection Agency and the Army Corps of 
Engineers. In addition, not too long ago, we signed a MOU 
between the Division of Energy and Mineral Development and the 
Department of Energy. Included in that, we are trying to look 
at the Indian Energy Service Center as becoming a participatory 
party to that MOU.
    IESC has prepared an addendum to the MOU with IEED and DOE 
in order to finalize the agreement. The addendum is currently 
the review process. We do need to make sure the MOU clearly 
identifies the roles of the different offices in relation to 
executing the Indian Energy Program.
    GAO has also identified the need to establish a documented 
process for seeking input from key stakeholders. In response, 
the IESC has developed a process including intake forms that 
allow key agencies to provide input and requests for service 
received on behalf of tribes and other agencies.
    This information will allow the service center to 
prioritize work tasks based on a standard set of criteria 
contained in the IESC referral priority assessment. The 
priority assessment considers the potential work items' 
relative benefit to expediting an Indian energy project. The 
IESC began utilizing intake forms in August to obtain input 
regularly from stakeholders.
    In addition, the BIA is continuing the process of 
identifying and implementing the workforce plan regarding 
positions associated with the development of Indian energy and 
minerals.
    As I testified in May before the Committee, the IESC will 
collect data directly from BIA, BLM, ONRR and OST employees in 
an effort to identify workload and necessary technical 
competencies.
    The IEMSC will work with the partner bureaus to assess 
skills and competencies needed for energy and mineral workforce 
standards as well as identifying any existing gaps that may 
exist out there. An initial survey was distributed in August 
2017 to key employees across the bureaus to identify workload 
and necessary technical competencies. The results are currently 
being analyzed. The BIA is on target and expects to complete 
this recommendation by the end of 2017.
    Thank you for the opportunity to present an update on our 
progress. I look forward to answering any questions.
    Thank you.
    [The prepared statement of Mr. Black follows:]

  Prepared Statement of Michael S. Black, Acting Assistant Secretary, 
            Indian Affairs, U.S. Department of the Interior
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee, 
my name is Michael Black and I am the Acting Assistant Secretary for 
Indian Affairs at the Department of the Interior. Thank you for the 
opportunity to come back and present an update on behalf of the 
Department of the Interior (Department or DOI) regarding Indian 
Affairs' role in the development of Indian energy and our continued 
commitment to address the high risk designation in the Government 
Accountability Office (GAO) High Risk Report (GAO-17-317 High Risk 
Series).
    As we stated in our testimony in May, the Department agreed with 
GAO's recommendations and we continue to address the recommendations by 
implementing widespread reform to help foster energy independence among 
Tribes who are interested in developing their resources.
    As the High Risk report notes, GAO made fourteen recommendations to 
the Bureau of Indian Affairs (BIA), via three reports. I am happy to 
note that we've made progress on a number of the recommendations and 
plan to submit closure packages for those recommendations in the near 
future.
    As the former Director of BIA and current Acting Assistant 
Secretary, I know these issues well and acknowledge that we have a 
significant amount of work to do. My testimony today will update the 
Committee on our progress towards implementation of the various GAO 
recommendations.
GAO 15-502
    Recommendation 1: To ensure it can verify ownership in a timely 
manner and identify resources available for development, BIA should 
take steps to complete its GIS mapping module in TAAMS.

    Previously, Indian Affairs testified that the Trust Asset and 
Accounting Management System (TAAMS) was not designed as a geospatial 
mapping system, but is simply a system to reflect legal descriptions as 
they appear on documents recorded as required by federal law.
    In our previous testimony we also stated that the BIA would not be 
building out the GIS mapping module in TAAMS. Rather, the BIA would 
utilize commercially available, off-the-shelf mapping technology to 
integrate data viewing and map creation capabilities into TAAMS at the 
desktop. The GIS Map Viewer is based upon verified legal land 
descriptions and ownership data available in TAAMS with base reference 
data for mapping.
    We are pleased to announce that the Indian Affairs Information 
Technology Change Advisory Board and Architectural Review Committee 
granted the Authority to Operate the GIS Map Viewer and that the GIS 
Map Viewer has been deployed, as of August 31, 2017. The GAO closure 
package is currently being prepared.

    Recommendation 2: To ensure it can verify ownership in a timely 
manner and identify resources available for development, BIA should 
work with BLM to identify cadastral survey needs.

    The BIA and the BLM, in a coordinated and focused effort, prepared 
a Reimbursable Service Agreement between the two agencies to identify 
and deliver the much needed survey-related products and services. We 
are continuing to evaluate the cadastral survey inventories and our 
FY17 survey requests have been approved for funding and completion by 
BLM.
    An example of our progress is the Nevada Native Nations Land Act of 
2016, passed by Congress last year, which transferred 71,137 acres of 
BLM and Forest Service lands to six different tribes; these lands are 
being surveyed now by BLM to establish tribal trust land descriptions 
and boundaries.

    Recommendation 3: To improve the efficiency and transparency of its 
review process, BIA should develop a documented process to track its 
review and response times.

    We previously stated that the BIA was in the process of evaluating 
and reviewing the current realty review and approval process and 
information stored in TAAMS in order to improve efficiencies and 
timeliness in processing workloads. BIA subject matter experts have 
been developing requirements for tracking proposed mineral documents 
within TAAMS. Due to the fact that modifications to data systems must 
be reviewed by multiple entities within the Department, a request for 
an extension of time has been requested until the end of FY18. The BIA 
is waiting to hear whether this extension has been granted.

    Recommendation 4: To improve the efficiency and transparency of its 
review process, BIA should enhance data collection efforts to ensure it 
has data needed to track its review and response times.

    The Indian Energy Service Center has been working closely with BIA, 
ONRR, and BLM IT personnel to navigate system and software access 
challenges. Currently, access testing is ongoing but preliminary 
results indicate the IESC experiences significant efficiency gains as 
the office gains access to systems and software. For example, IESC ONRR 
staff has access to the BIA TAAMS system allowing for greater 
efficiency and transparency for each of the offices in the processing 
of Indian oil and gas projects.

    Recommendation 5: Provide additional energy development-specific 
guidance on provisions of Tribal Energy Resource Agreement (TERA) 
regulations that tribes have identified to Interior as unclear.

    After the previous hearing, the Office of Indian Energy and 
Economic Development (IEED) reviewed Tribal comments regarding the 
term, ``inherently federal functions.'' We noticed that the term 
``inherently federal functions'' is the only provision of the TERA 
regulations that Tribes have described to IEED as unclear. IEED 
consulted with the Department's Office of the Solicitor (SOL), which 
determined that this term can only be defined on a case-by-case basis 
when tribes have made a request to take over a specific federal 
program, function, service and activity (PFSAs). On August 31, 2017, 
IEED placed on its web site guidance to tribes with an approved TERA or 
which seek to assume energy-related administrative functions under 
Public Law 93-638. The GAO closure package is currently being prepared.
GAO 16-553
    Recommendation 6: Establish required timeframes for the review and 
approval of Indian Communitization Agreements (CAs) to ensure a more 
timely CA process.

    The Department is continuing its work to ensure CA processes are 
timely. A National Policy Memorandum (Memorandum) was issued that 
establishes a tracking mechanism to monitor the existing timeframes for 
review and approval of Indian CAs. This tracking mechanism will provide 
the data which will be used to establish standard and reasonable 
timeframes for CA review and approval. The timeframes will also be 
incorporated into the BIA Fluid Mineral Estate Procedural Handbook and 
the Onshore Energy and Mineral Lease Management Interagency Standard 
Operating Procedures as updates to this document occur. On April 27, 
2017, the Department received notice than an extension was granted by 
OIEA to extend the target date to the end of FY18.

    Recommendation 7: Develop a systematic mechanism for tracking 
Indian CAs through the review and approval process to determine, among 
other things, whether the revised CA process meets newly established 
timeframes.

    The BIA is still developing a systematic mechanism to track Indian 
CAs through the review and approval process. Until TAAMS can be 
modified to incorporate the key identifiers and data fields, the BIA is 
utilizing a centralized tracking spreadsheet on the Google platform. 
BIA leads the development and deployment of this tracking spreadsheet 
in consultation and coordination with BLM. We received an extension 
from GAO to complete this recommendation by the end of FY18 and are on 
track to meet our target.

    Recommendation 8: Assess whether the revised CA process is 
achieving its objective to improve the timeliness of the review and 
approval of Indian CAs, and if not, make changes as appropriate.

    BIA and BLM will continue to use the tracking spreadsheet mentioned 
above, and, upon completion, the enhanced TAAMS capabilities, to 
monitor and assess the results of the efforts to streamline the Indian 
CA review and approval process. The bureaus will continue to coordinate 
to establish a process for review of the collected data, which will 
assist in identifying and implementing any necessary process 
modifications.
GAO 17-43
    Recommendation 9: Include the other regulatory agencies in the 
Service Center, such as Fish and Wildlife Services, the Environmental 
Protection Agency, and the Army Corps of Engineers, so that the Service 
Center can act as a single point of contact or a lead agency to 
coordinate and navigate the regulatory process.

    The Indian Energy Service Center (IESC) is working to implement 
Memoranda of Understanding (MOU) with the appropriate Department 
bureaus and other Federal agencies involved in the development of 
Indian energy and mineral resources and to define roles and 
responsibilities regarding the development of those resources on trust 
lands. MOUs are being developed with the Fish and Wildlife Service 
(FWS), Environmental Protection Agency (EPA), Army Corps of Engineers 
(Corps), as well as IEED and Department of Energy (DOE).
    The BIA/IESC, through the Indian Energy Minerals Steering Committee 
(IEMSC), has also established Federal Partners Groups, where needed, 
which include: BIA, BLM, Office of Natural Resource Revenue (ONRR), 
Corps, FWS, and EPA. These groups provide field knowledge on energy and 
mineral issues and serve to facilitate and focus the single point of 
contact desired by the respective parties regarding the processing of 
energy development for each region.
    Currently, Federal Partner Groups are being established for the 
Navajo Region, the Southwest Region, and the Rocky Mountain Region. 
Federal Partner Groups for the Great Plains Region, the Eastern 
Oklahoma/Southern Plains Regions, and the Western Region are currently 
meeting on a regular basis.

    Recommendation 10: Direct the Bureau of Indian Affairs to establish 
formal agreements with IEED and DOE that identify, at a minimum, the 
advisory or support role of each office.

    BIA recognizes that in addition to the identification of potential 
energy resources, there must be organized coordination between agencies 
to fully develop and/or protect Indian energy and mineral resources.
    In an effort to improve communication between the two offices, an 
MOU was recently signed between IEED and DOE outlining a partnership 
going forward. The IESC reviewed this MOU with the intent of also 
entering into the existing agreement. The IESC prepared an addendum to 
the MOU with IEED and DOE to finalize the agreement. The addendum is 
currently in the surname process.

    Recommendation 11: Direct Bureau of Indian Affairs to establish a 
documented process for seeking and obtaining input from key 
stakeholders, such as BIA employees, on the Service Center activities.

    The IESC developed a process that allows key agencies to provide 
input and requests for service received on behalf of tribes from the 
IESC. The process includes guidance on the prioritization of task 
orders. The Executive Management Group of the IESC, is comprised of the 
directors of the BIA, BLM, ONRR, and Office of the Special Trustee for 
American Indians (OST), are engaged in this effort. The IESC began 
utilizing the intake forms in August, to obtain input regularly from 
stakeholders, and currently has no data to report.

    Recommendation 12: Direct the Bureau of Indian Affairs to document 
the rationale for key decisions related to the establishment of the 
Service Center, such as alternatives and tribal requests that were 
considered.

    The development of the IESC was the result of a concept paper 
produced by a multi-agency team formed by the IEMSC. The multi-agency 
team held a tribal listening session, received written comments, and 
conducted conference calls in an effort to gather input from relevant 
stakeholders. The final version of the concept paper also included an 
organization chart which set forth the IESC chain-of-command. The IEMSC 
accepted and approved the concept paper as presented by the multi-
agency team. At this point, the BIA believes this recommendation is 
complete and the GAO closure package is currently being prepared

    Recommendation 13: Direct the Bureau of Indian Affairs to 
incorporate effective workforce planning standards by assessing 
critical skills and competencies needed to fulfill BIA's 
responsibilities related to energy development and by identifying 
potential gaps.

    The BIA is continuing the process of identifying and implementing a 
workforce plan regarding positions associated with the development of 
Indian energy and minerals. As we testified in May before the 
Committee, the IESC will collect data directly from BIA, BLM, ONRR, and 
OST employees in an effort to identify workload and necessary technical 
competencies. Then, the IESC will work with partner bureaus to assess 
skills and competencies needed for energy and mineral workforce 
standards. The initial survey was distributed in August 2017 to key 
employees across BLM, ONRR, OST and BIA; results are being analyzed. 
The BIA is on target and expects to complete this recommendation by the 
end of 2017.

    Recommendation 14: Direct the Bureau of Indian Affairs to establish 
a documented process for assessing BIA's workforce composition at 
agency offices taking into account BIA's mission, goals, and tribal 
priorities.

    The BIA is assessing the BIA Indian energy and mineral workforce 
composition using the same process as described in Recommendation 13. 
This includes collecting data directly from BIA, BLM, ONRR, and OST 
employees. The BIA is on target to complete this assessment by December 
31, 2017.
Conclusion
    Thank you for the opportunity to present an update on our progress 
in addressing the GAO recommendations from past reports and the GAO 
High Risk Report (GAO-17-317 High Risk Series). I would be glad to 
answer any questions the Committee may have.

    The Chairman. Thank you, Assistant Secretary Black.
    I will now turn to Rear Admiral Michael Weahkee.

         STATEMENT OF REAR ADMIRAL MICHAEL D. WEAHKEE, 
         ACTING DIRECTOR, INDIAN HEALTH SERVICE, U.S. 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Mr. Weahkee. Good afternoon, Chairman Hoeven, Vice Chairman 
Udall and members of the Committee.
    I am pleased to provide testimony before the Committee 
today and would like to thank you for elevating the importance 
of delivering quality health care throughout the IHS. The IHS 
is committed to overcoming the longstanding, systemic problems 
hindering our efforts to provide quality health care for 
American Indians and Alaska Natives.
    I am proud to report that our concerted efforts are 
producing results. As of September 1, the Rosebud Indian Health 
Service Hospital is no longer under a Systems Improvement 
Agreement. We are striving to achieve a similar result for the 
Pine Ridge and Omaha Winnebago hospitals.
    Also in August, I signed the Official Patient Wait Times 
Policy and GAO has agreed to close that recommendation.
    The GAO identified a number of challenges facing the IHS in 
administering our health care programs. To overcome these 
challenges, we developed a Quality Framework and have worked 
diligently to refine and operationalize it.
    In less than a year, we have updated governing board 
bylaws, acquired a credentialing software system, developed a 
standard patient experience of care survey, developed patient 
wait time standards, and developed a performance accountability 
dashboard.
    We are on course to address the four key GAO 
recommendations on improvement of agency oversight of quality 
health care. In December 2016, IHS developed contingency and 
succession plans for the replacement of key personnel, 
including our area director positions. These succession plans 
are currently being updated and will be updated on a semi-
annual basis. We will provide GAO with the copy they need as 
evidence of completion. We have requested closure of this 
recommendation.
    The second and third recommendations I would like to 
address concern patient wait times for appointments. The 
official patient wait times policy is now in effect. This 
policy finalizes the interim standards initially established in 
July of this year.
    The fourth quality-related recommendation is the agency-
wide oversight of quality. We developed a performance 
accountability dashboard and acquired a practitioner 
credentialing software system. Dashboard metrics will allow 
oversight and management of compliance with policy and 
regulatory requirements that ensure quality and safety of care. 
The system-wide dashboard will be in full operation in the fall 
of 2017.
    The national provider credentialing and privileging system 
standardizes and streamlines the credentialing process across 
the IHS. We are implementing it in four IHS areas with plans to 
expand it to the rest of the agency by the end of 2017.
    I am also happy to report that the agency has made progress 
in addressing the ten key GAO recommendations on the 
improvement of our Purchased and Referred Care Program. To 
address the first of these three recommendations, IHS modified 
the data system that tracks PRC referrals and emergency self 
referrals. We will report baseline data for calendar year 2017.
    IHS is also researching industry standards and will develop 
separate payment timeframe targets for these two referral 
types. We will request closure of this recommendation when that 
work is completed.
    GAO's second recommendation was for PRC funds to be used to 
pay for program staff. Historically, IHS' internal policy was 
to use PRC funds solely for the purchase of health care 
services. Any change in the current use of PRC should be 
balanced with the continuing need to assure access to services 
we cannot provide in our facilities.
    In response to the third recommendation, we provide 
patients with current information regarding opportunities for 
new coverage options. While we agree with the premise of the 
GAO's recommendation, we have reservations about the specifics 
and would like to discuss this further with the GAO. The agency 
has requested closure of these two recommendations.
    The recommendation to cap payment rates has been 
implemented. Since capping PRC payment rates for non-hospital 
services, the IHS and participating tribes have realized a 
savings of more than $178 million so far in this calendar year. 
The additional savings realized enabled IHS and tribes to 
increase access to more health care services.
    IHS also developed an online PRC rate provider tracking 
tool to monitor patient access to care. We look forward to 
demonstrating that tool for the GAO. IHS has requested closure 
of this recommendation.
    I would like to address GAO's three recommendations on the 
allocation of PRC program resources by describing the Federal-
tribal administration of PRC funds. Approximately 60 percent of 
the PRC funds are distributed through Indian Self-Determination 
awards and are protected from unilateral reductions or 
reallocation by the agency.
    Any future changes in the PRC allocation methods, such as 
the two recommended by the GAO, will require tribal 
consultation. IHS has requested closure of these 
recommendations.
    We are also taking steps to address the third 
recommendation related to development of written PRC allocation 
policies and procedures. To assure transparency, IHS routinely 
directs area directors through official PRC allocation of funds 
distribution memos.
    These memos are official policy guidance and become part of 
the PRC policy chapter of the Indian Health Manual. The revised 
chapter is currently under final agency review. The agency has 
requested closure of this recommendation.
    We continue to address the remaining recommendations not 
discussed above: one related to the enrollment processes 
improvement and two focused on oversight for estimating need. 
Closure of these recommendations will be requested when we 
complete the steps necessary to document the changes and 
improvements we have made since 2011.
    I am very proud of the dedication and commitment of our IHS 
staff, at all levels of the agency, who have accomplished these 
objectives in the past year. I want to thank you again for your 
commitment to improving quality, safety and access to health 
care for American Indians and Alaska Natives.
    I am happy to answer any questions the Committee may have. 
Thank you, sir.
    [The prepared statement of Admiral Weahkee follows:]

Prepared Statement of Rear Admiral Michael D. Weahkee, Acting Director, 
  Indian Health Service, U.S. Department of Health and Human Services
    Chairman and Members of the Committee:
    Good afternoon, Chairman Hoeven, Vice-Chairman Udall, and Members 
of the Committee. I am RADM Michael D. Weahkee, Acting Director of the 
Indian Health Service (IHS). I am pleased to provide testimony before 
the Senate Committee on Indian Affairs on ``High Risk Indian Programs: 
Progress and Efforts in Addressing GAO's Recommendations''. I would 
like to thank you, Chairman Hoeven, Vice-Chairman Udall, and Members of 
the Committee for elevating the importance of delivering quality care 
through the IHS.
    I am an enrolled member of the Zuni Tribe. Most recently, I served 
as the Chief Executive Officer (CEO) of the Phoenix Indian Medical 
Center, leading the largest federally-operated IHS hospital in the 
nation. I have previously served at IHS headquarters in a variety of 
posts. Before that, I served in leadership roles on behalf of the 
California Rural Indian Health Board. I am honored to be a veteran of 
the United States Air Force, where I served as a Public Health 
Specialist. I am also proud of the fact that I was born at the IHS 
hospital in Shiprock, New Mexico, and grew up as an active user of the 
IHS health care system. Essentially, Indian health care and public 
health have been my lifelong pursuits and are my passion.
    IHS is a distinctive agency in the Department of Health and Human 
Services (HHS), established to carry out the responsibilities, 
authorities, and functions of the United States to provide health care 
services to American Indians and Alaska Natives. It is the only HHS 
agency whose primary function is direct delivery of health care. The 
mission of IHS, in partnership with American Indian and Alaska Native 
people, is to raise the physical, mental, social, and spiritual health 
of American Indians and Alaska Natives to the highest level. The IHS 
system consists of 12 Area offices, which oversee 170 Service Units 
that provide care at the local level. Health services are provided 
through facilities managed by IHS, by Tribes and tribal organizations 
under authorities of the Indian Self-Determination and Education 
Assistance Act (ISDEAA), and through contracts and grants awarded to 
urban Indian organizations authorized by the Indian Health Care 
Improvement Act.
    IHS is steadfastly committed to overcoming the longstanding 
systemic problems that have hindered our efforts to provide quality 
health care to American Indians and Alaska Natives, and I am proud to 
report that our concerted efforts are producing results. As of 
September 1, the Rosebud IHS Hospital is no longer under a Centers for 
Medicare & Medicaid Services (CMS) Systems Improvement Agreement. CMS 
determined that the hospital had substantially met all of the Medicare 
Conditions of Participation. We are striving to achieve a similar 
result for Pine Ridge and Omaha Winnebago IHS Hospitals.
    IHS is also committed to doing all that is necessary to be removed 
from GAO's High Risk list. The GAO's High Risk Report cited 14 
recommendations that focus on IHS, derived from seven reports issued 
over a period of six years (2011 to 2017). Although all 14 
recommendations remain open at this time, we have made substantial 
progress and are continuing to press forward. In July, IHS provided an 
update to GAO and requested closure of seven recommendations. GAO 
requested additional documentation concerning those requests that we 
are currently providing, and we will continue to submit additional 
responses to address the remaining GAO recommendations. I will describe 
the actions we are taking to address the recommendations and strengthen 
the IHS' ability to ensure quality health care.
Ensuring Quality Care
    GAO identified a number of challenges facing IHS in administering 
Indian health care programs that have hindered our ability to ensure 
quality of care to Indian communities. To overcome these challenges, 
IHS developed a Quality Framework--a plan to develop, implement and 
sustain quality-focused compliance programs at all of our hospitals and 
clinics. The Framework incorporates quality standards from national 
experts, including best practices and expertise from across the IHS 
system of care. Core elements of the Framework focus on strengthening 
our organizational capacity to improve quality of care and systems, 
meeting and maintaining accreditation for IHS Direct Service 
Facilities, aligning our service delivery processes to improve patient 
experience, ensuring patient safety, and improving transparency and 
communication about patient safety and quality to IHS stakeholders.
    IHS has worked diligently to refine and operationalize the Quality 
Framework. In less than a year, we have updated Governing Board Bylaws, 
acquired a credentialing software system, developed a standard patient 
experience of care survey and an implementation strategy using 
electronic tablets, developed patient wait time standards for the 
primary care setting, developed a quality assurance accountability 
dashboard (the data reporting tool is currently undergoing functional 
testing), and are nearing award of a master contract for accreditation 
of hospitals. The Deputy Director for Quality Health Care provides 
senior leadership oversight of critical quality improvement strategies 
related to accreditation/certification, patient safety, and quality 
care.
    IHS has made remarkable progress and will continue to pursue 
implementation of the Quality Framework at all levels of IHS and in 
partnership with Tribal/Urban Indian organization partners as a key 
priority. Our leadership team is focused on ensuring quality in all 
that we do as an agency, and I expect this perspective and commitment 
will continue to produce results.
    We are strengthening the agency's use of standards by developing 
new policies that define the standards and implementing system level 
reporting and oversight through Agency-wide improvements. We are on 
course to address the four key GAO recommendations on improvement of 
agency oversight of quality of care, and requested closure of one of 
these four recommendations in July.
    The first recommendation I would like to address concerns 
succession planning for key leadership personnel. In December 2016, IHS 
developed contingency and succession plans, including skills gap 
analyses and appropriate developmental programs for the replacement of 
key personnel, including Area Directors. The December 2016 succession 
plans are currently being updated and will continue to be updated on a 
semi-annual basis. In addition to the contingency and succession plans, 
IHS has developed leadership training academies for senior leaders. For 
example, the IHS Leadership Training program is designed to prepare 
selected IHS individuals to serve in leadership positions at the 
Service Unit, Area, and Headquarters levels. In addition, staff 
rotations through IHS Headquarters provide additional training for 
senior level positions, and a mentoring initiative for those who have 
recently been promoted to key leadership positions has been 
implemented. We have requested closure of this recommendation.
    The second and third recommendations I would like to address 
concern patient wait times for appointments. Wait times are an 
important measure of the patient experience and IHS federally-operated 
service units have been collecting and tracking this data to improve 
patient services. On August 25, I signed the official Patient Wait 
Times policy formalizing the IHS wait times standards for outpatient 
primary care visits in direct care IHS facilities. This policy 
finalizes the interim standards initially established in July of this 
year. Under these new standards, the mean wait time for a primary care 
appointment will be 28 days or less and for urgent appointments it will 
be 48 hours or less. These mean appointment wait times are the core 
measures that will be collected in all primary care settings. The data 
collected across IHS' direct service sites will be used to continually 
improve patient wait times. In order to implement the agency-wide 
standards by December 31, 2017, the IHS Chief Medical Officer 
communicated the Patient Wait Time policy Circular to Area clinical 
leadership on September 1, 2017. As part of its implementation, IHS 
will monitor the outcome data and ensure corrective actions are taken 
if standards are not met.
    The fourth quality-related recommendation I will address is the 
Agency-wide oversight of quality. IHS has developed a performance 
accountability dashboard and acquired a practitioner credentialing 
software system. The accountability dashboard incorporates the five 
dimensions of health: patient safety, care effectiveness, patient-
centeredness, timeliness, and care efficiency. Dashboard metrics will 
allow oversight and management of compliance with policy and regulatory 
requirements that ensure quality and safety of care. The measure 
definitions are complete, the data collection tool is in testing, and 
the dashboard for visualization is under development. The IHS will have 
the system-wide dashboard of performance accountability metrics in 
operation in the fall 2017. The dashboard is a powerful tool that will 
enable Headquarters and Area Offices to have real-time visibility 
across the IHS system. This will facilitate implementation and 
monitoring of quality measures throughout the system over time.
    We are making other system-wide changes to ensure that quality 
improvements made by the federally-operated facilities are supported 
and sustained over time. IHS is modernizing the way provider 
credentialing and privileging, and facility accreditation preparedness 
is carried out within the federally-operated hospitals and clinics. 
Also, we strengthened the governance and oversight of the hospitals by 
implementing standard Hospital Governing Board requirements.
    To facilitate the hiring of qualified providers and ensure patient 
safety, the IHS is implementing a national provider credentialing and 
privileging system. The system is being implemented first in four IHS 
Areas and then will be expanded to the remaining IHS Areas by the end 
of 2017. The national credentialing system standardizes and streamlines 
the credentialing process across the IHS. Privileging and performance 
evaluations of IHS practitioners will be key aspects tracked in the new 
system that help address quality and patient safety. The IHS 
credentialing and privileging policy is being updated to support the 
new system.
    Additionally, IHS expects to award a contract to a single 
accrediting organization for IHS hospitals later this month. IHS' use 
of one accreditation body will support the Agency-wide approach to 
quality improvement in the IHS facilities to help maintain 
accreditation. IHS' existing partnership with CMS further supports best 
health care practices and other organizational improvements for IHS 
federally-operated hospitals that participate in the Medicare program.
    Lastly, since January 2017, IHS Hospital Governing Board (GB) 
Bylaws for inpatient acute care hospitals have been standardized across 
the Agency. We set minimum standards IHS-wide, while maintaining 
flexibility for the Areas and Service Units to accommodate needs 
specific to their locations and service populations. GB bylaws now 
specify minimum meeting frequency, agenda topics, and membership. Area 
Directors were instructed to immediately incorporate these changes into 
GB Bylaws for each hospital, communicate these new requirements to 
their Service Units and verify completion of these changes to IHS 
Headquarters (which was accomplished by February 2017).
Purchased/Referred Care Improvements
    I can report that the agency has made progress in addressing the 10 
key GAO recommendations on improvement of the Purchased/Referred Care 
(PRC) program. The IHS is improving and increasing access to care for 
our beneficiaries through outreach, education and enrollment 
activities, and requested closure of six recommendations in July. We 
are working to provide GAO with additional documentation of our 
progress.
    The first GAO recommendations on the PRC program that I can report 
progress on address opportunities for improving the administration of 
the program. IHS places a high priority on timely processing of 
purchase orders, private provider claims, and payments for those 
services that cannot be provided by our facilities directly. Improving 
the data reporting and measurement system is essential to assuring that 
PRC programs are efficient. To that end and to address the first of the 
three recommendations, IHS modified the data system that tracks PRC 
referrals and emergency self-referrals and expects to begin baseline 
reporting for calendar year (CY) 2017 that will be available in CY 
2018. IHS is currently researching industry standards and expects to 
have separate payment timeframe targets for these two referral types. 
We will request closure of this recommendation when the work is 
completed on all the items. GAO's second recommendation was for PRC 
funds to be used to pay for program staff. Historically, IHS' internal 
policy was to use PRC funds solely for the purchase of health care 
services. Any change in the current use of PRC should be balanced with 
the continuing need to assure access to services we cannot provide in 
our facilities. As for the third recommendation, we provide patients 
with current information regarding opportunities for new coverage 
options and ability to access care without obtaining a PRC referral. 
The Agency has requested closure of these two recommendations.
    I can report that the recommendation to cap payment rates for non-
hospital services has been addressed. IHS issued a final rule with 
comment, which amended the IHS regulations at 42 CFR part 136 to add a 
new Subpart I. The new Subpart I applies Medicare payment methodologies 
to physician and other non-hospital services or items purchased through 
the PRC program. The additional savings realized enables IHS and Tribal 
providers to increase access to more health care services. After 
capping PRC payment rates for non-hospital services, IHS and Tribes 
that use the IHS fiscal intermediary for the processing of PRC claims 
have realized a savings of more than $178 million so far this calendar 
year. All IHS PRC programs participate in the PRC payment rates; Tribes 
are not required to participate, but may opt in. To date, six Tribes 
have opted in to participate. IHS also developed an online PRC Rates 
Provider Tracking tool to monitor the access to physician and other 
non-hospital care. This tool enables PRC programs to document providers 
that refuse to contract for their most favored customer rate or accept 
the PRC rates. IHS provided training on use of the tool to the Area PRC 
officers at a face-to-face meeting in December 2016. The tool went live 
in January 2017. IHS has requested closure of this recommendation.
    I would like to address GAO's three recommendations on the 
allocation of PRC program resources by describing the federal-tribal 
administration of PRC funds and its implications for our response to 
the first and second recommendations. Approximately sixty percent of 
the PRC funds are distributed through Indian Self-Determination awards 
and are protected from unilateral reductions or reallocation by the 
agency, absent one of the circumstances set forth in 25 U.S.C.  
5325(b)(2) or 25 U.S.C.  5388(d)(1)(C)(ii). IHS partners with tribal 
leaders in making PRC fund allocation decisions. Any future changes in 
PRC allocation methods, such as the two recommended by GAO, will 
undergo tribal consultation. The tribal-federal workgroup on improving 
PRC met in June of this year and recommended not changing the fund 
allocation methodology at a time when there is uncertainty in the 
future of federal health care financing and policy. IHS has requested 
closure of these two recommendations.
    I would also like to report on actions we are taking to address the 
third recommendation related to the development of written PRC 
allocation policies and procedures. To assure transparency, IHS 
distributed guidance on PRC allocation of funds to Area Directors and 
PRC officers in CY 2016. IHS routinely directs Area Directors through 
official PRC allocation-of-funds distribution memos. These memos are 
official procedural documents that become a part of the PRC policy 
chapter of the Indian Health Manual. The chapter is under final agency 
review. The Agency has requested closure of this recommendation.
    We continue our work addressing the remaining recommendations not 
discussed above: one addressing improvement in the enrollment processes 
and two focused on oversight for estimating need. We expect to request 
closure for these three open recommendations when we complete all the 
steps necessary to document the changes and improvements the Agency has 
adopted since 2011.
    IHS is committed to addressing all risks impacting our ability to 
carry out our Agency mission. We have incorporated the GAO's High Risk 
Report recommendations into the IHS risk management work plan for 2017. 
IHS has entrusted leadership at all levels of the organization to 
identify current controls and will review their effectiveness in our 
annual internal management assessments. Where controls are deemed 
insufficient, actions to strengthen them will be taken. This special 
focus on identifying and mapping internal controls will help to inform 
strategic planning and identify appropriate areas for resource 
allocation.
    I am very proud of the dedication and commitment of IHS staff at 
all levels of the agency who have accomplished these objectives in the 
past year. And I think you will agree with me that these actions 
demonstrate that IHS is taking its challenges seriously, and is 
continuing to take assertive and proactive steps to address them. Thank 
you for your commitment to improving quality, safety, and access to 
health care for American Indians and Alaska Natives. I will be happy to 
answer any questions the Committee may have.

    The Chairman. Thank you, Admiral.
    Mr. Dearman.

     STATEMENT OF TONY DEARMAN, DIRECTOR, BUREAU OF INDIAN 
           EDUCATION, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Dearman. Good afternoon, Chairman Hoeven and members of 
the Committee.
    Thank you for the invitation to appear again on behalf of 
the Bureau of Indian Education in regard to our recent work 
addressing BIE's High Risk designation.
    As highlighted in the GAO reports, much work remains, but I 
am glad to report progress since the last time we met. Since 
the last hearing, we continue to prioritize the GAO 
recommendations and view their reports as a constructive tool 
to improve the agency and help the students we are committed to 
serve.
    In three separate reports dating back to 2013, GAO provided 
13 recommendations to improve the management of BIE schools. 
Currently, 11 of the GAO's recommendations remain open but 
progress is being made on these outstanding recommendations.
    GAO issued three additional reports in May of 2017 since 
the last Committee hearing. The three additional GAO reports 
include several new recommendations, ten of which directly 
involve the BIE while the others require coordination with 
other bureaus within Indian Affairs.
    As director, I am working with our senior leadership team 
within BIE, as well as with Indian Affairs, the Secretary's 
office, and our colleagues at the GAO to ensure that BIE 
comprehensively addresses each outstanding recommendation.
    We appreciate the assistance and collaboration offered by 
GAO. In recent months, the BIE, through the support of the 
department, has increased its direct communication with GAO, 
which has enhanced BIE's ability to more effectively address 
outstanding recommendations.
    Through in-person meetings and follow-up teleconferences, 
GAO has provided BIE comments and suggestions for closing the 
outstanding recommendations.
    Regarding GAO-13-774, BIE has completed implementation of 
recommendations two and three, which includes development of a 
communications strategy and increased collaboration with the 
Department of Education.
    Recommendation five, revision of a strategic workforce 
plan, was previously considered closed by the department, but 
not GAO. After a thorough review of the recommendation five 
closure package with GAO, BIE and the department have chosen to 
list the recommendation as open and are working to submit a new 
closure package.
    Further, BIE is currently working to implement 
recommendations one, four, and five, which are to develop 
documented decision-making procedures, a strategic plan, and a 
comprehensive workforce plan. BIE plans to fully implement the 
remaining recommendations contained in GAO-13-774 by 2018.
    Regarding GAO-15-121, BIE continues to implement GAO's four 
recommendations and complete its work with respect to 
recommendations one and two no later than the close of 2018 and 
recommendations three and four by the middle of 2019.
    Regarding GAO-16-313 and GAO-17-421, Indian Affairs has 
formed an interagency workgroup to address all safety-related 
GAO recommendations. The workgroup consists of staff from BIE, 
BIA, and pertinent partners across Indian Affairs. The group's 
first meeting was held on May 31 through June 1, 2017, with a 
second meeting held on August 15-16, 2017.
    Working with BIA, BIE is currently crafting and 
implementing comprehensive safety inspection policies and 
procedures to ensure that high quality inspections and reports 
are carried out.
    Regarding GAO-17-423, not all recommendations are directly 
under BIE's purview. However, BIE tentatively concurs with 
recommendation seven and is examining the feasibility and cost 
of implementation.
    With regard to Recommendation 8, BIE non-concurs with GAO 
regarding this recommendation. While altering the 
transportation formula could be beneficial, it would require a 
formally-negotiated rulemaking. To consider such rulemaking, 
BIE would need to have support of its tribal partners.
    Regarding GAO-17-447, BIE is working cooperatively with 
partners across Indian Affairs to address GAO's 
recommendations. As this is a new report, these items are not 
outstanding but will nonetheless be addressed as expeditiously 
as possible.
    Members of the Committee, thank you for the opportunity to 
present testimony today and provide the Committee an update 
regarding our GAO work. BIE is excited about our recent 
progress and remains committed to sustained improvement. The 
BIE looks forward to working with you and appreciates your time 
and attention in this important matter.
    I would be honored to answer any questions you may have.
    [The prepared statement of Mr. Dearman follows:]

    Prepared Statement of Tony Dearman, Director, Bureau of Indian 
               Education, U.S. Department of the Interior
    Good afternoon Chairman Hoeven, Vice Chairman Udall, and Members of 
the Committee. Thank you for the invitation to appear again on behalf 
of the Bureau of Indian Education (BIE) to discuss our ongoing work to 
address the high risk designation from the Government Accountability 
Office (GAO) in the High Risk Report (GAO-17-317 High Risk Series).
    As highlighted in the GAO reports, much work remains, but I am glad 
to update this Committee on progress made since I last testified in 
May. A priority as BIE Director includes addressing the GAO 
recommendations and the issues highlighted head on. As I previously 
testified, the BIE team views the GAO's reports as a constructive tool 
to improve our agency and help the students we are committed to serve. 
As such, I will update you on headway made in the following areas:

        1. GAO High Risk Status for BIE
        2. GAO Recommendations
        3. GAO Recommendations Status & BIE Next Steps

GAO High Risk Status for BIE
    In February, the GAO released its High Risk Report (GAO-17-317 High 
Risk Series) designating BIE as a high risk agency. The GAO highlighted 
the following persistent weaknesses noted in previous reports that 
inhibit the agency from efficiently executing its mission to serve 
Indian students:

  <bullet>  Indian Affairs' (IA) oversight of school safety and 
        construction, as well as how BIE monitors the way schools use 
        Interior funds;

  <bullet>  The impact of limited workforce planning in several key 
        areas related to BIE schools;

  <bullet>  The effects of aging BIE school facilities and equipment 
        and how such facilities contribute to degraded and unsafe 
        conditions for students and staff; and

  <bullet>  How the lack of internal controls and other weaknesses 
        hinder IA's ability to collect complete and accurate 
        information on the physical conditions of BIE schools.

    In three separate reports dating back to 2013, the GAO provided 
thirteen recommendations to improve IA's management of BIE schools. 
Currently, eleven of GAO's recommendations remain open. However, 
progress is being made to address BIE's outstanding recommendations. 
GAO issued three additional reports in May 2017 since the last 
Committee hearing on this subject. These new GAO reports include 
several new recommendations, ten of which would require a response 
solely from BIE. BIE tentatively concurred with one of the ten new 
recommendations and disagreed with one other new recommendation. The 
remaining recommendations, due to agency authority, are directed to 
other entities within IA, or a combination of agencies within IA.
    As Director, I am committed to addressing these outstanding items. 
To that end, I am working with our senior leadership team within BIE as 
well as with the Bureau of Indian Affairs (BIA), the Office of the 
Assistant Secretary for Indian Affairs, the Secretary's Office, and our 
colleagues at GAO to ensure BIE comprehensively addresses each 
outstanding recommendation as expeditiously and effectively as 
possible. We are appreciative of the assistance and collaboration 
offered by GAO. In recent months, the BIE, through the support of the 
Department, has increased its direct communication with GAO, which has 
enhanced BIE's ability to efficiently address outstanding 
recommendations. Through in-person meetings and follow-up 
teleconferences, GAO has provided BIE comments and suggestions for 
closing recommendations in a timely manner.
    GAO recommendations are a roadmap for BIE to establish and maintain 
comprehensive internal policies and procedures that support service 
delivery, ensure accountability, and provide organizational stability. 
We look forward to continuing our work with GAO and this Committee.
GAO Recommendations: Status and BIE Next Steps
    In the past few years, BIE planned, consulted on, designed, and 
implemented a complex, multifaceted, bureau-wide reorganization. In 
February 2016, the Department of the Interior directed BIE to move 
forward with Phase I of its reorganization, with the agency committing 
considerable time, energy, and resources to carry out the directive. 
Simultaneously, considerable turnover within BIE senior leadership 
reduced capacity and focused BIE's attention on day-to-day services 
rather than addressing critical, long-term organizational improvement 
strategies highlighted in the GAO reports. BIE has now prioritized 
resources and critical personnel to refocus efforts to address the 
longstanding issues outlined in GAO reports that will ultimately 
improve our ability to serve Indian students.
    In November 2016, the BIE filled several key positions that have 
been tasked with serving on an internal working group focused on 
evaluating all outstanding GAO recommendations as well as BIE's past 
GAO closure submissions. The team completed its analysis in early 2017 
and reported its findings and recommendations to BIE leadership in mid-
March. Based on the information received, BIE leadership is not 
satisfied with the quality and timeliness of the work to date, and 
recognizes the shortcomings and need for each GAO recommendation to be 
reexamined and addressed. BIE is currently working to complete the 
actions recommended in each of these three GAO reports.
                    outstanding gao recommendations
    GAO-13-774--INDIAN AFFAIRS: Better Management and Accountability 
Needed to Improve Indian Education (September, 2013).

    GAO made five recommendations:

        I.) Develop and implement decisionmaking procedures which are 
        documented in management directives, administrative policies, 
        or operating manuals;

        II.) Develop a communication strategy;

        III.) Appoint permanent members to the BIE-Education committee 
        and meet on a quarterly basis;

        IV.) Draft and implement a strategic plan with stakeholder 
        input; and

        V.) Revise the BIE strategic workforce plan.

    BIE has completed implementation of recommendations two and three, 
which includes development of a communications strategy and increased 
collaboration with the Department of Education (ED) through several 
mechanisms, including a BIE-ED Committee that meets every other week 
(rather than just quarterly). Recommendation five, revision of a 
strategic workforce plan, was previously considered closed by the 
Department, but not GAO. After reviewing the previous work submitted by 
BIE regarding recommendation five, and after closely collaborating with 
GAO regarding the work product, BIE and the Department relisted the 
recommendation as open and will continue to work collaboratively with 
GAO until fully implemented. Additionally, BIE will assess the 
effectiveness of its implementation of GAO's closed recommendations in 
an effort to continually improve BIE's operations. BIE is currently 
working to implement recommendations one, four, and five, which are to 
develop documented decisionmaking procedures, a strategic plan, and a 
comprehensive workforce plan. BIE plans to fully implement the 
remaining recommendations contained in GAO-13-774 by 2018.
    Recommendation I--In June 2017, the BIE workgroup convened staff 
from across the Bureau for a two-day workshop. During the workshop, the 
workgroup solicited inter-departmental input regarding a formal 
strategic decisionmaking policy. A draft strategic decisionmaking 
procedure was produced by the workgroup shortly thereafter. On July 14, 
2017, the BIE workgroup provided a copy of the draft strategic 
decisionmaking procedure to all BIE senior leaders for a one-week 
review and input period. Following the one week review, the workgroup 
incorporated all feedback and submitted the draft procedure to the IA's 
Office of Regulatory Affairs and Collaborative Action (RACA) on July 
28, 2017.
    RACA is the office responsible for reviewing, and ultimately 
publishing, the document in the Indian Affairs Manual (IAM), which is a 
reference for all agencies and offices within IA. On August 18, 2017, 
RACA provided BIE edits and input for review. On August 21, 2017, BIE 
completed its review of RACA's feedback and resubmitted the draft 
decisionmaking procedure for publication into the IAM. BIE is awaiting 
final publication of the strategic decisionmaking procedure by RACA. 
Upon final publication, BIE will schedule a training event for all 
appropriate personnel regarding the use of the newly drafted strategic 
decisionmaking policy as well as work to provide a closure package to 
GAO.
    Recommendation IV--BIE, working cooperatively with leadership 
within IA and pertinent stakeholders, has reviewed the strategic plan 
submitted to GAO in September 2016 and has determined the quality of 
work as unsatisfactory, both for the purposes of closing recommendation 
four and for working as a functional tool intended to guide the 
organization in achieving its mission. At the close of this review, BIE 
immediately began the process of planning and drafting a revised 
strategic plan.
    On March 8, 2017, BIE conducted a senior leader strategic planning 
exercise. On April 11, 2017 BIE held a follow-up strategic planning 
session, convening local, regional, and central office personnel to 
determine paths forward. By the end of April 2017, BIE began revising 
its mission and vision statement and identified draft goals. On June 
14, 2017 and July 18--20, 2017, BIE held additional strategic planning 
sessions to identify strategies aligned to goals and established a 
communications plan for sharing the draft plan with internal and 
external stakeholders to solicit feedback as well as developing a 
timeframe for formal consultation with Indian tribes. In addition, BIE 
identified dates for additional organization-wide planning meetings on 
August 29-30, 2017 and September 26-28, 2017.
    To ensure that the strategic planning process is effective and 
results in a high quality and useful work product, the BIE has 
partnered with external subject matter expert organizations, such as 
the Council of Chief State School Officers (CCSSO), the South Central 
Comprehensive Center (SC3), and the Building State Capacity and 
Productivity Center (BSCPC). These organizations have provided BIE with 
technical expertise and shared best practices in developing an 
effective, long-term strategic plan as well as creating a functional 
action plan for implementing a measurement system to track progress 
once the strategic plan is implemented.
    GAO-15-121--INDIAN AFFAIRS: Bureau of Indian Education Needs to 
Improve Oversight of School Spending (November, 2014).

    GAO made four recommendations:

        I.) Develop a comprehensive workforce plan;

        II.) Implement an information sharing procedure;

        III.) Draft a written procedure for making major program 
        expenditures; and

        IV.) Create a risk-based approach in managing BIE school 
        expenditures.

    BIE is continuing its work to implement GAO's four recommendations 
contained in GAO-15-121. To that end, the BIE plans to complete its 
work with respect to recommendations one and two no later than the 
close of 2018 and recommendations three and four by the middle of 2019.
    Recommendation I--During the early stages of the current BIE 
reform, IA contracted a workforce study. However, following BIE's 
meetings with GAO on June 17, 2017 and August 16, 2017, GAO provided 
clarification regarding work product expectations identifying skills 
gap, prioritization of vacancies, and the need for plans contingent on 
varying outcomes, such as available funding and hiring constraints. BIE 
plans to revisit the work done by IA in the prior study and reexamine 
its workforce planning efforts in light of GAO's feedback.
    Recommendation II--BIE staff is working to ensure that necessary 
financial oversight information is shared across the agency. In the 
short term, BIE has developed a share point system and ensured all key 
staff members, such as those involved with calculating the 2017-2018 
school risk matrix, have access to audit reports. Additionally, BIE now 
has access to the IA Division of Internal Evaluation and Assessment 
(DIEA) Audit Report Tracking Tool (ARTT) system that provides a real-
time status of Audit report findings, recommendations and questioned 
costs.
    In June 2017, the BIE working group convened staff from across the 
BIE for a two-day workshop to develop a permanent, comprehensive, 
interdepartmental policy and procedure for sharing information across 
the Bureau. In addition, BIE is currently working with its Information 
Technology support staff to examine the feasibility of implementing an 
electronic tool that would provide all internal divisions within BIE 
fiscal monitoring access to upload and share documents and information.
    Recommendation III--As part of its work, BIE leadership has given 
all staff with fiscal monitoring responsibilities the directive that 
all school monitoring events will be made in a single, coordinated 
manner. This will ensure that staff from the Division of Performance 
and Accountability, School Operations, Education Resource Center, and 
Associate Deputy Director offices will conduct single, coordinated 
visits to all schools identified as high risk through the utilization 
of the BIE High-Risk Matrix.
    In addition, the BIE workgroup convened a two-day workshop in June 
2017 concentrated solely on addressing all outstanding recommendations 
related to BIE's fiscal monitoring activities. During the workshop, the 
workgroup solicited inter-departmental input regarding a uniform, 
comprehensive, interdepartmental fiscal monitoring policy and 
procedure. A draft fiscal monitoring policy and procedure is in draft 
form but still requires further input and editing, which will be 
completed in the coming months. Following the workgroup's final 
drafting efforts, BIE plans to submit the fiscal monitoring policy and 
procedure to all BIE senior leaders for a review and input period, 
after which BIE will submit the proposed policy and procedure to RACA 
for review and publishing into the IAM.
    Finally, on August 14, 2017, the BIE received Departmental approval 
to advertise and fill three key fiscal monitoring related positions. 
These positions are newly established under the reform and were 
specifically designed to provide BIE with increased human capital 
needed to effectively conduct fiscal monitoring. These positions 
include a Program Manager for Budget and Finance and two auditor 
positions.
    Recommendation IV--In June 2017, members of the BIE working group 
met to begin drafting a comprehensive risk-based monitoring methodology 
to ensure compliance with the Fraud Reduction and Data Analytics Act of 
2015 (Public Law 114-186). During the workshop, the workgroup solicited 
inter-departmental input regarding a comprehensive risk assessment 
methodology. The workgroup has completed its work implementing the 
2017-2018 risk assessment based on the comprehensive methodology.
    The workgroup is also drafting a risk assessment policy and 
procedure to ensure the methodology is used annually in a standardized 
and uniform manner. However, the policy and procedure requires further 
input and editing, which will take place in coming months. Following 
the workgroup's final drafting efforts, BIE plans to submit the risk 
assessment policy and procedure to all BIE senior leaders for a review 
and input period, after which BIE will submit the proposed policy and 
procedure to RACA for review and publishing into the IAM.
    GAO-16-313--INDIAN AFFAIRS: Key Actions Needed to Ensure Safety and 
Health at Indian School Facilities (March, 2016)

    GAO made recommendations:

        I.) Ensure that all BIE schools are inspected as well as 
        implement a plan to mitigate challenges;

        II.) Prioritize inspections at schools where facility 
        conditions may pose a greater risk to students;

        III.) Develop a plan to build schools' capacity to promptly 
        address safety and health problems with facilities and improve 
        the expertise of facility staff to maintain and repair school 
        buildings; and

        IV.) Consistently monitor whether schools have established 
        required safety committees.

    BIE is working to implement GAO's four recommendations contained in 
GAO-16-313.
    Recommendations I and II--BIE has worked with the Bureau of Indian 
Affairs (BIA) to address the first recommendation by implementing a 
Safe School Audit. BIA completed safety inspections at all BIE-funded 
schools for the first time in 2016. BIE and BIA are currently on time 
in completing all school inspections in 2017 as well. However, BIE 
understands the need to ensure focus on completion does not detract 
from the quality of inspections. To that end, BIA has formed an inter-
agency workgroup to address all safety-related GAO recommendations. The 
workgroup consists of staff from across IA, including the BIE, BIA, 
DIEA, the Deputy Assistant Secretary--Management (DAS-M), and Division 
of Facilities Management and Construction (DFMC). The workgroup's first 
meeting was held on May 31 through June 1, 2017, with a follow-up 
meeting held August 15-16, 2017.
    As a contingency plan, the workgroup has also drafted an inspection 
mitigation and prioritization plan based on risk should it be unable to 
complete 100 percent of inspections in future years. BIE plans to 
submit its mitigation and prioritization plan to its IA partners for 
review and input no later than September 2017.
    Recommendations III and IV--BIE is conducting ongoing staff and 
administrator training and is working with BIA to provide long-term 
support of school safety committees through school inspections. We 
recognize that reporting for such activities is inadequate, so BIE is 
working with BIA to provide oversight of such inspections. The 
agencies, through the workgroup members described in GAO 16-313 
Recommendations I and II, are working to produce formal policies and 
procedures to address shortcomings through a recently formed inter-
agency workgroup that met throughout the summer coordinate activities 
to ensure such committees are formed and trained in a timely and 
consistent manner.
                        2017 gao recommendations
    GAO-17-421--INDIAN AFFAIRS: Further Actions Needed to Improve 
Oversight and Accountability for School Safety Inspections (May, 2017)

    GAO made six recommendations, five of which apply to BIE in 
conjunction with IA and BIA:

        I.) Develop and take corrective actions to address BIA safety 
        program weaknesses identified in prior Interior evaluations;

        II.) Develop and implement a plan to assess employees' safety 
        training needs and monitor compliance with IA's safety training 
        requirements;

        III.) Ensure employee performance standards on inspections are 
        consistently incorporated into the appraisal plans of all 
        personnel with safety program responsibilities;

        IV.) Develop performance and quality standards and establish a 
        process for routinely monitoring the quality of inspection 
        reports;

        V.) Develop a system which routinely monitors and require 
        inspectors to submit completed safety reports to schools within 
        a 30-day timeframe; and

        VI.) Use timelines information to assess employee performance 
        for personnel with safety program responsibilities.

    IA has formed an inter-agency workgroup to address all safety 
related GAO recommendations. The workgroup consists of staff from BIE, 
BIA, IA, DIEA, and DFMC. The group's first meeting was held on May 31 
through June 1, 2017, with a second follow-up meeting held on August 
15-16, 2017. Working with BIA, BIE is currently crafting and 
implementing comprehensive safety inspection policies and procedure to 
ensure that inspections and reports are carried out in a timely manner 
and are of sufficient quality.
    GAO-17-423--INDIAN AFFAIRS: Better Data Could Improve Road 
Management and Inform Indian Student Attendance Strategies (May, 2017)

    GAO made eight recommendations, two of which apply to BIE:

        VII.) Provide guidance to BIE schools to collect data on 
        student absences related to road and weather conditions; and

        VIII.) Review the BIE Transportation Formula and determine, 
        with BIA and tribal stakeholders, what adjustments are needed 
        to better reflect transportation costs for schools.

    Recommendation VII--BIE tentatively concurs with this 
recommendation and is currently examining feasibility and costs of 
tracking absences due to road conditions, among other important data 
points, within its Native American Student Information System (NASIS) 
system.

    Recommendation VIII--BIE non-concurs with GAO regarding this 
recommendation. While this could be beneficial, altering the 
transportation formula would require formal negotiated rulemaking. The 
BIE would only consider undergoing such rulemaking with the support of 
its tribal partners. To date, BIE has not received any such 
communication.
    GAO 17-447--INDIAN AFFAIRS: Actions Needed to Better Manage Indian 
School Construction Projects (May, 2017)

    GAO made six recommendations, two of which apply to BIE:

        V.) Improve oversight and technical assistance to tribal 
        organizations to enhance tribal capacity to manage major 
        constructions projects; and

        VI.) Develop and implement guidance for maintaining complete 
        contract and grant files for all BIE school construction 
        projects.

    Recommendation V--BIE will work cooperatively with IA Office of 
Facilities, Property and Safety Management (OFPSM) and DFMC to draft an 
engagement plan and high risk project tracking system on time to GAO. 
As this is a new report, these items are not outstanding but will be 
addressed as expeditiously as possible.

    Recommendation VI--BIE will work cooperatively with OFPSM and DFMC 
to draft guidance regarding how official contract and grant files are 
required to be held by the contracting officer or awarding official and 
any requirements for retention and location of such files. BIE will 
coordinate activities to ensure on time delivery to GAO. As this is a 
new report, these items are not outstanding but will be addressed as 
expeditiously as possible.
Conclusion
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee, 
thank you for the opportunity to present testimony today and provide 
the Committee an update regarding our work with GAO. BIE is excited 
about our recent progress and remains committed to addressing all of 
GAO's recommendations in order to achieve sustained improvement. The 
BIE looks forward to working with you and our partners as we address 
the recommendations. Thank you for your time, and I would be honored to 
answer any questions you may have.

    The Chairman. Thank you, Mr. Dearman.
    We will start with five-minute rounds of questioning.
    I would like to direct my opening question to Ms. Emrey-
Arras. According to GAO, there are 23 open recommendations for 
Indian education; 14 open recommendations for Indian health; 
and 13 open for Indian energy.
    Talk to me about how we make progress to close out all of 
those. What is the best way in terms of oversight and follow up 
to make sure these are tracked and closed out in a way that 
both you and the agency come to agreement that it is resolved 
or we are back here talking about it?
    Ms. Emrey-Arras. I think within the education area, we have 
been doing a lot of additional communication. As Director 
Dearman noted, we have done a lot more in-person meetings, and 
a lot of additional phone meetings to provide suggestions on 
how to implement recommendations and provide direct and 
immediate feedback on their ideas.
    I think that kind of interaction is very constructive in 
terms of moving towards implementation. I do think within the 
education area, there has been a lot of movement since we put 
them on the High Risk List and since we last testified. Plans 
have been put in place for all the education recommendations 
and steps are being laid out to accomplish implementation.
    At this point, we are not able to close any of those, but 
we would like to see continued progress in those areas.
    The Chairman. What is a realistic timeframe for getting 
them closed and being back here reporting, not that we would 
have them all closed but a realistic timeline to do a follow up 
on progress?
    Ms. Emrey-Arras. I think another six months. I think that 
would be an excellent time to see where we stand. Certainly, 
there are recommendations across these three areas of energy, 
education and health care that are more intensive, that 
require, for example, more collaboration and consultation and 
the like.
    On the other hand, there are some low hanging fruit 
recommendations shall we say, some easy fixes that could be put 
in place for some of them. For example, I think we would say 
that it should not take four and a half years to develop 
procedures to oversee school spending. We know right now there 
are, in fact, draft procedures they mentioned they have.
    Instead of waiting until the middle of 2019 to finalize and 
implement those, our hope would be within the next six months, 
if possible, those could be rolled out so we would have more 
oversight of school spending.
    The Chairman. Are there provisions in regard to any of 
these recommendations where you hit impasse?
    Ms. Emrey-Arras. I would not say within the education area. 
Let me defer to my other colleagues in energy and health care 
and see on their ends.
    Ms. King. Senator, I am Kathleen King from the healthcare 
team. Thank you for having us here.
    I would say in the health care arena, we have some 
disagreements with the agency over the PRC program. In 2012, we 
actually made a matter to Congress in terms of directing IHS to 
develop a new formula for the PRC program because we found 
there was a great disparity in spending per capita ranging from 
a low of $300 to a high of $800.
    We knew at that time the agency would not agree with that 
so we made that a matter for Congress.
    We also made some recommendations to the agency at that 
time about how they count PRC users and how they calculate the 
availability of hospital services. That was in 2012. At that 
time, the agency agreed with us. Most recently, the agency has 
said that is a matter for tribal consultation and indicated 
today the Tribal Consultation Group had said they are not in 
favor of any changes at this time.
    The Chairman. Are there other areas of disagreement within 
IHS and with the GAO recommendations?
    Ms. King. I think the only other outstanding disagreement 
has to do with their use of PRC funds for staff. In our view, 
we thought there is such a shortage of staff to process 
enrollments and help people figure out whether they are 
eligible for Medicaid or other things that some of the PRC 
funds should be allocated for that purpose. The agency 
disagreed with that.
    The Chairman. Anything else in regard to IHS?
    Ms. King. One more thing and this is not really a 
recommendation but we would be interested in seeing what the 
agency's third-party reimbursements have been over the last 
several years after the implementation of the Affordable Care 
Act. That is not work we have conducted or have underway.
    The Chairman. Thank you.
    In regard to energy?
    Mr. Rusco. Thank you. I am Frank Rusco.
    I would not characterize it exactly as an impasse but more 
of we are not exactly on the same page in one particular area. 
That would be in oversight and monitoring practices at the 
Bureau agency level.
    BIA has been working on documents to set standards and also 
to identify problems. What we have not seen yet is plans to 
roll out those and get those plans and guidance to the agency 
level and then to follow up with monitoring and measurement. 
Until we see that, it will not happen on the ground.
    I could give you some more specifics but I think it is 
better that we work directly with BIA and talk with them to try 
to sort out that sort of disconnect.
    The Chairman. Is there disagreement or has it just not been 
figured out?
    Mr. Rusco. I am not sure, because we have not had the 
conversation, whether it is something that they're missing 
about what we expect but what we see them doing is not clearly 
what we want them to do. I think we are going to have a round 
of conversation shortly about that.
    The Chairman. We will ask that question as well.
    Thank you.
    Mr. Rusco. Thank you.
    The Chairman. Now I will turn to the Vice Chairman.
    Senator Udall. Thank you, Chairman Hoeven.
    I very much appreciate Senator Franken pitch hitting. He is 
always very good at that.
    I would like to talk about the efforts to reduce BIA's 
workforce. We have heard news reports about personnel moves 
affecting dozens of high level SES employees and yet the 
Administration left Congress in the dark about Interior's 
plans.
    The proposed personnel moves are uprooting employees who 
have formed deep and lasting relationships with the surrounding 
communities, including individuals with the Office of the 
Assistant Secretary for Indian Affairs and the Bureau of Indian 
Affairs.
    The GAO noted repeatedly in its High Risk Reports that an 
under staffed and ill equipped workforce is already an issue 
that hinders Indian energy development. For Mike Black, I am 
concerned that Interior's personnel moves will only exacerbate 
the issues identified by the GAO.
    I sent two letters to the Department of the Interior about 
these recent personnel moves, one on July 11 and another on 
August 21, neither of which has received a response.
    Can you commit to me today I will have a response to all of 
my questions and my colleagues' questions by this Friday, 
September 15?
    Mr. Black. I will certainly take back that message to the 
Administration that you are requesting that.
    Senator Udall. Thank you.
    I know these letters were above your pay grade but just 
want you to take back to Secretary Zinke, the Deputy Secretary 
and others that he committed to answering these both talking to 
me privately and publicly. We expect answers when all of us put 
in letters of this nature.
    One issue the GAO High Risk Report highlights is the lack 
of interagency coordination for Indian programs. That certainly 
is no surprise to this Committee. One school in my home State 
of New Mexico, the Dz School on the Navajo Nation has recently 
suffered from this lack of coordination.
    Because of some unforeseen issues with the campus sewage 
system and the location of the school's gym, their school 
camp's replacement has stalled. BIE, BIA, DOI leadership and 
IHS all need to come to the table before these issues will be 
resolved.
    Mr. Dearman, you were at a meeting my staff had at the Dz 
School recently so I know you heard about these unique issues 
firsthand. Has your office made any progress on these issues 
since that meeting last month?
    Mr. Dearman. Yes, Senator, we have. We actually reached out 
to the Division of Facilities Management and Construction and 
started talking about the issues raise during our school visit.
    You are exactly right. We have to have other departments of 
Indian Affairs at the table. BIA and BIE, including the tribe, 
will need to be at the table to discuss the issues that were 
brought up.
    Senator Udall. Also, the Indian Health Service. I want to 
ask Admiral Weahkee, was your office aware that the IHS clinic 
near the school uses the school's sewage system?
    Mr. Weahkee. Sir, the issue just came to our attention at 
the national level recently but our engineers and sanitarians 
in the Navajo area have been working closely with Indian 
education in Dz. Yes, sir, we do have folks addressing the 
issue there.
    Senator Udall. Can I get your commitment that you will have 
your team work with Mr. Dearman and the Navajo Nation and the 
Dz school board to get this sewage issue resolved in a timely 
manner?
    Mr. Weahkee. Yes, sir.
    Senator Udall. Mr. Black, was your office aware of the Dz 
gym sitting on BIA-held land?
    Mr. Black. Yes, sir. Mr. Dearman made me aware of that 
issue as well.
    Senator Udall. Can I get your commitment to see if the 
Bureau can resolve this issue internally to follow up with my 
staff and the school if congressional action is needed?
    Mr. Black. Yes, sir, certainly.
    Senator Udall. For the panel as a whole, the Dz School 
example illustrates this larger coordination issue perfectly. 
How will each of your offices do a better job of interagency 
coordination moving forward? Why don't we start with you, Mr. 
Black?
    Mr. Black. I think quite honestly, sir, that is something 
we all have to address between all the different bureaus and 
agencies, especially when we are dealing with 
multijurisdictional issues such as this.
    Coming from the region, I have had some experience where we 
have to make sure and sometimes just incorporating regular 
meetings between Indian Health Service, BIA and BIE, it really 
starts at the local level and works its way up versus top down. 
We need to get that message out to our staff.
    Senator Udall. Admiral Weahkee?
    Mr. Weahkee. Yes, sir, I would reiterate the structural 
issues of covering vast geography. We do have great leaders on 
the ground to elevate issues to their area leadership. We need 
to be more transparent and communicative with those area 
directors on issues such as these that cross barriers and 
boundaries.
    Senator Udall. Thank you.
    Mr. Dearman, briefly.
    Mr. Dearman. Vice Chairman, not only the Senate Committee 
on Indian Affairs is holding us accountable, so is Secretary 
Zinke. We are working with all the departments within Indian 
Affairs that have their hand in our schools, meaning BIA, DASM, 
Deputy Assistant Secretary of Management, and IHS to help take 
care of our kids.
    We have really collaborated with agencies that have a hand 
in running our schools. We have gotten a lot of support from 
the Administration and the departments I have been working with 
to make sure our kids and schools are taken care of.
    Senator Udall. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. I would now like to turn to our other Vice 
Chairman, Senator Al Franken.

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. We might as well just have three, Senator 
Cortez Masto as well.
    I just have a question concerning the extent to which Mike 
Black and Secretary Zinke have gotten involved with this GAO 
report and how hands-on they are in addressing this issue. Does 
anyone have any comment on that? Ms. Emrey-Arras?
    Ms. Emrey-Arras. I would say that Mr. Black has certainly 
been involved in our meetings. I would defer to the agency 
officials regarding the Secretary's involvement.
    Mr. Black. Since long before I became the Acting Assistant 
Secretary, I have been involved in a lot of these efforts 
related to the GAO on the energy side of it. Since becoming 
Acting Assistant Secretary, I have had regular interaction with 
Tony to make sure I have updates to find out where they are in 
the process, what they are doing, and making sure they are 
getting the support they need from my office.
    The Administration and the Secretary's office on down has 
been very supportive of all of the activities we are doing and 
encouraging us. Indian energy and education are two of the 
Secretary's priorities and things he wants us to carry forward. 
We are getting the full support of his office as well.
    Senator Franken. His office. Do you see him much?
    Mr. Black. I don't interact that often with the Secretary 
himself, but he has been busy trying to catch up on a lot of 
things, the first part of the transition, but he is aware of 
the issues going on. We are making sure he is being updated as 
well.
    Senator Franken. I want to talk about a crisis that is 
going on not just in Indian Country but especially in Indian 
Country, something that has been declared a crisis by the 
Administration. That is the opioid epidemic.
    Indian reservations are the front lines. In my State, 
Indian babies are now over ten times more likely to be 
diagnosed with Neonatal Abstinence Syndrome or opioid 
withdrawal symptoms than other babies in our State's Medicaid 
program. Earlier this year on the Red Lake Reservation from 
February to July, nearly three dozen people overdosed, 
including ten overdoses in July alone.
    At one point the crisis was so bad, the local hospital ran 
out of narcan which blocks the effects of opioids and helps 
reverse an overdose.
    I met with a number of tribal leaders. It was clear from 
these meetings that we need a multi-pronged approach to address 
the opioid crisis in Indian Country. We need more research, 
lower prescribing rates, greater resources for prevention, and 
better access to treatment.
    We also need to consider integrating traditional 
ceremonies, culturally sensitive recovery and those kinds of 
activities into evidence-based treatment and recovery programs. 
The White Earth Reservation in the northwest part of my State 
has a successful MOMS Program.
    Again, the President's Commission on Combating Drug 
Addiction and the opioid crisis has declared this a crisis. Led 
by Chris Christie from New Jersey, they recently posted the 
interim report of recommendations to address the opioid crisis.
    The primary recommendation was to declare the opioid 
epidemic a national emergency in order to permit the use of 
Federal disaster funds in fighting outbreak, to encourage swift 
action by Federal agencies to address the crisis and to raise 
public awareness and prompt congressional action.
    While the Administration is evaluating the legal 
implications of such a declaration, the Commission is working 
on a final report which is expected in October. Several tribes 
in Minnesota have also issued similar public emergencies.
    Admiral Weahkee, what recommendations did you make to Chris 
Christie and the Commission on how to address the opioid 
epidemic in Indian Country?
    Mr. Weahkee. Thank you, Senator Franken, for bringing up 
this issue of the opioid epidemic. We know it is a national 
issue. It definitely has had a dramatic impact in Indian 
Country.
    I believe that some of the efforts that have been made 
across our agencies to ensure the availability of naloxone are 
a great start within the IHS. We have also been training our 
providers ensuring that they are properly certified for 
medication assisted treatments. You already mentioned the 
culturally appropriate and community specific modalities.
    I believe tribes need to be at the table in helping to 
define what is going to work best for their communities. I 
think number one is bringing the tribes to the table to be 
engaged in the conversation.
    Senator Franken. Bringing the tribe to the table?
    Mr. Weahkee. Yes, sir.
    Senator Franken. I know my time has run out. I just feel 
this is such a crisis that we are seeing, such devastation. I 
just would like to see resources. I think that is why you 
declare an emergency, you can use resources to get people 
treatment and medication therapy, and get them some proper 
medication to substitute that does not cause you to get high.
    It just feels like an all hands on deck emergency all over 
the Country but especially in Indian Country, especially in 
Minnesota. I think we need to understand this is something that 
can be treated and needs to be treated.
    I would urge you especially to be in contact or Indian 
Health to be in contact with the Commission. Okay?
    Mr. Weahkee. Thank you, sir.
    Senator Franken. Thank you.
    The Chairman. Vice Chairman Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Mr. Chairman.
    Let me follow up on that conversation, Admiral, because we 
all know opioids are a crisis across the Country. I want to 
understand. You are not just now bringing tribes to the table; 
this is a conversation we have already been having with these 
tribes, is that correct?
    Mr. Weahkee. Yes, ma'am. My response was in regard to what 
would I tell Governor Chris Christie. Tribes have definitely 
been heavily engaged with us in developing programs that work 
for their communities.
    Another example of something we have done within our agency 
is the development of what we call the HOPE Committee which 
focuses on heroin, opioids and pain efforts. Getting tribes 
involved in conversations about what is going to work, 
culturally what is going to work within their communities, 
looking at the available resources and filling in those gaps is 
imperative.
    Senator Cortez Masto. Thank you.
    First of all, let me say thank you for what you have done 
to implement some of the recommendations. I know one of the 
recommendations you looked at was to address the patient wait 
time and having a tracking system in place.
    Something has come to my attention, and I just want to 
verify this. The medical records system that IHS uses was 
developed by Veterans Affairs but the VA is going to 
discontinue support of this system within the next few years. 
Your new patient wait time tracking program is attached to that 
system.
    Is that true and what do you intend to do if the VA is no 
longer supporting your RPMS system?
    Mr. Weahkee. Thank you for the question.
    First, the VA has announced they are moving away from their 
VISTA Electronic Health Record. We have historically relied on 
the VA for programming support of our own Resource and Patient 
Management System, RPMS.
    Fortunately, in this case, with regard to the tool that we 
developed for patient wait times, we developed that separate 
from the EHR and in a way that it can be used with any 
electronic health record, business intelligence software that 
is not necessarily a part of RPMS, so they are separate 
systems.
    Senator Cortez Masto. It is not going to have an impact at 
all on your patient tracking?
    Mr. Weahkee. It will have an impact on patient tracking but 
in regard to how we are going to monitor it with our new 
tracking tool, no.
    Senator Cortez Masto. Is VA discontinuing support of the 
system going to impact you in any way whatsoever?
    Mr. Weahkee. The discontinuation of their program support 
will definitely have an impact on the Indian Health Service. We 
have initiated robust conversations not only with the VA but we 
have held tribal listening sessions, initiated conversations 
with DOD, the Coast Guard, all of which are going through or 
have gone through similar conversions.
    We are at a point where we are information gathering to 
really assess what our options will be moving forward.
    Senator Cortez Masto. Then putting a plan together to come 
up with any gap to address the changes that need to take place 
and any resources that need to be associated with it?
    Mr. Weahkee. Yes, ma'am.
    Senator Cortez Masto. Is that going to happen this budget 
cycle if you need resources?
    Mr. Weahkee. We have initiated conversations internally. As 
you mentioned, the VA's plan is to transition off over several 
years. We know at least in the next several budget cycles. We 
are more in an information gathering and planning phase. When 
we start to need the resources to purchase consultants or 
hardware, those asks will come should we make the decision to 
convert the EHR.
    Senator Cortez Masto. Thank you.
    First of all, thank you gentlemen for being here as well as 
GAO. It is very, very important and we appreciate you coming 
back here and talking about the changes and recommendations 
that are necessary.
    Mr. Dearman, we talked in the past, the last time you were 
here. One of the things we talked about was the school 
accountability data and the lack of up-to-date information that 
was necessary on the websites.
    Correct me if I am wrong, did I hear that you are any 
closer to having real time data or up-to-date data that is 
available?
    Mr. Dearman. We are getting closer, Senator, to gathering 
that data and having that where we can actually start 
distributing that data. We are not quite there yet.
    Senator Cortez Masto. What is the timeframe, you think, for 
that?
    Mr. Dearman. I can get back to you on the timeframe. We are 
working collaboratively with the Department of Education on 
this task. I can get back to you with the timeframe.
    Senator Cortez Masto. That would be very helpful.
    You have a lot on your plate. The other question I have is, 
is it a resource issue or a staffing issue to help address some 
of these changes that are going to be necessary?
    Mr. Dearman. It is just the lack of gathering and 
collecting data over the past three years. We are playing catch 
up to catch up with all the data we haven't collected. That is 
the reason we are behind.
    Senator Cortez Masto. With the Chairman's indulgence, 
because I know my time is up, we heard from GAO some of their 
concerns that there may be some impasse still. I did not hear 
your response to that, the concerns they brought up. Do you 
have any response to that?
    Mr. Black. Let me go ahead, Senator, if you don't mind.
    Especially like for BIA on the energy stuff, it wasn't 
necessarily an impasse. I think we need to do a better job of 
communicating and working directly with the GAO folks on our 
BIA energy. Similar to what our BIE folks have been doing with 
school education, they have been working closely with them. We 
just need to do a better job.
    It is not that we are not taking proactive steps. We need 
to make sure we are communicating better with GAO.
    Senator Cortez Masto. Thank you.
    Anything else to add?
    Mr. Weahkee. Yes, ma'am. With regard to the Indian Health 
Service items specific to our Purchase and Referred Care 
Program, I agree also that robust discussion with Ms. King and 
her team is going to be needed to come up with a final 
determination.
    Our tribes, in consultation, have told us some of the items 
they are absolutely opposed to. Bringing all partners together 
and doing what is best for our patients and the communities is 
key. When it comes down to it, that is what we are here for. We 
need to make those decisions in a patient-centered manner.
    Senator Cortez Masto. Thank you.
    Thank you, Mr. Chairman, for letting me go over my time. I 
appreciate it.
    The Chairman. Absolutely, Senator.
    Admiral, let us go to you and talk about the PRC Program. 
The question I had for Ms. Emrey-Arras was where is there some 
disagreement in resolving the outstanding recommendations? We 
will meet again in six months just like we are today and we 
want to see what we are down to. We are going to just work 
through these.
    That is why I was asking where there is disagreement. It 
sounds like there is some disagreement on the PRC Program. 
Would you address that for me?
    Mr. Weahkee. Yes, sir.
    I will start with the first one being the allocation 
methodology.
    The Chairman. The second was shifting money to staffing.
    Mr. Weahkee. Yes, sir.
    With the allocation methodology, we currently use, as part 
of our formula, the number of active users of our facilities. 
The GAO has asked us to look at using the historical number or 
the actual number of PRC users which is a subset of the active 
user count.
    By doing that, we actually will run into some problems 
because the use of the PRC Program changes from year to year.
    They also asked that we develop a defined benefits package. 
Without this funding coming through a mandatory source, it is 
difficult to define the minimum package.
    I believe a third recommendation that was made was that we 
give all of our PRC-eligible patients a card to identify that 
they are eligible for PRC. That is also a problem because 
something as simple as a member moving off reservation out of 
the CHSDA would no longer make them eligible for the PRC.
    These are just some examples of the more robust 
conversations I think we need to have with the GAO around some 
of those issues.
    With regard to the use of PRC funding for staff or other 
administration of the program, I think we are open to having 
more conversation in that regard. I think there is variation 
across our agency and that we should be giving our sites more 
tools than further restricting their choice and ability to 
manage the program in the way they see fit. I think there is 
more to be said in that regard.
    The Chairman. That would make sense in two respects, both 
because I want you to work with GAO because we are going to 
meet again in six months and I want to encourage you to work 
together so that when we come back it is something that we have 
agreement on. Also, it is going to relate to another question I 
will ask here in a minute.
    The other area was on energy for you, Mike. The question 
that came up was oversight monitoring but basically getting 
guidance, measurement and standards down to the offices and 
some kind of follow up for making sure they meet them. Do you 
follow me?
    We are getting stories, for example, that in Colorado if 
you want to site a well or something like that, it is taking 
three months off the reservation but 31 months on the 
reservation for energy development. That is one example. I 
think it goes to what you talked about and why it needs to be 
addressed.
    Mr. Black. Certainly, sir. I think we are trying to take 
those steps to get there. Part of that is being able to collect 
the data and have the necessary information to number one, 
confirm those types of reports. I cannot really confirm that it 
takes 31 months on the reservation versus three months off. We 
need to be able to collect that data and in the entire process, 
be able to verify that.
    The Chairman. Mr. Secretary, it is. I am hearing from 
tribal chairmen and others that it is. What I am more concerned 
about is that you are getting standards down. I get that you 
are working to put that in place, but also, in the meantime, 
people are waiting to execute that lease. That is a lot of 
opportunity cost for the tribe.
    How can you address that more expeditiously both interim 
and on a permanent basis is what I am getting at.
    Mr. Black. In the process of trying to collect data, I hope 
you did not get me wrong, it is not like we are trying to stop 
everything else to get data so that we can move forward. We are 
trying to continue with that process utilizing the Indian 
Energy Service Center and the other resources that we have 
available to us to be able to address APDs, leases and right-
of-ways at all of our different offices.
    We are using our Division of Energy and Mineral 
Developments and some of their programs to provide some 
assistance. We are using our regional offices to supplement and 
help the agency offices to get activities done.
    We are identifying through the process I mentioned a bit 
earlier through different intakes from the field as far as what 
is the work out there that needs to be done, what resources do 
we need to put out there to make this happen.
    The Chairman. I would encourage you to get input from the 
field, talk to the States too. Maybe they can give you some 
resources to help leverage your efforts but you really have to 
look both in terms of the solution you want to put in place but 
some interim steps to help this along while you are doing that.
    Mr. Black. I totally agree, sir.
    The Chairman. Okay. For the BIE staffing, clearly staffing 
is a problem, Mr. Dearman. What are you doing to address the 
staffing issue? I know it is not easy but it is clearly really 
important.
    Mr. Dearman. Mr. Chairman, we have received 77 waivers as 
was mentioned in our written testimony. Currently, at the 
school level, we have 90 teacher vacancies and 871 positions 
filled.
    One of the things we have done is we had to address the 
immediate problem right now with losing our teachers. In 
talking to our schools, one problem causing us to lose our 
teachers was because it took so long to go through the 
application process.
    One of the things our HR was having to do because of our 
process was having to go through every class that a teacher 
candidate had in their college transcripts. Just recently we 
put in place that BIE will recognize State certification of the 
States our schools reside in. Therefore, when we get a teacher 
application, if that certification is attached, there will not 
be two weeks of going through transcripts.
    We are really trying to address the immediate problem of 
why we are losing our teachers. That is what we are doing at 
that level.
    We are currently in the process of advertising the 77 
waivers that we have received and moving forward with filling 
the positions.
    The Chairman. That is maybe one of the best answers we have 
heard today. That is exactly what you should be doing, working 
with the State, leveraging your resources, if they have those 
approvals and you can rely on them, that helps you get people 
faster. That is a great example. It doesn't cost you more money 
but enables you to get the job done more expeditiously.
    I appreciate that. That is the kind of solutions we are 
looking for because we are always in a resource-constrained 
environment. Any leveraging like that you can do, I commend you 
on that solution.
    Admiral Weahkee, yesterday morning, we heard from tribal 
leaders from Arizona. The White House had a lot of the tribal 
chairmen in and we met with them. Dr. Price, the Secretary of 
HHS, met with them.
    Specifically, we heard leaders from the Gila River Indian 
Community and the Quechan Tribe that IHS is in the process of 
constructing two IHS health care facilities. There are others 
going on too. For example, in my home State of North Dakota, 
three affiliated tribes and Chairman Fox is also working on a 
facility.
    The staffing is the concern. The tribe is building 
facilities but they need IHS either staffing or funding, if 
they go through the 638 Program. I want to make sure you are 
asking for those funds through the budgeting process and you 
are doing everything you can.
    Again, this is a leveraging effort between the tribe 
building the facility and the Federal Government providing the 
staffing or the funding for 638 staffing. Can you address that? 
How do we make sure that happens that as they build these 
facilities, they have the staff there because this is progress 
in providing quality health care on the reservation? That is 
what we are after.
    Mr. Weahkee. Yes, sir. Thank you for the question.
    We have a series of six to seven different facilities. Some 
of them are brand new facilities; some of them are replacement 
facilities; and some are joint venture projects where we 
partnered with the tribes. They provided the funding for the 
construction and we have agreed to provide the staffing and 
operations support.
    In the case of Gila River, which will be opening the Red 
Tail Hawk or what we refer to also as the Southeast Ambulatory 
Care Center and the Quechan Tribe in Fort Yuma, this is one of 
those situations where the first to complete the facility, we 
fund the facilities as they are completed using the date of 
occupancy as the key date. The tribes are working hard to get 
their facilities built ahead of time.
    In the most recent budget cycle, we had to make a tough 
decision about what could be funded. The decisions were to 
allocate the funds or ask for the funds for those positions or 
those sites that were going to be opened first. We know these 
two facilities will be coming online in 2018.
    We are appreciative of the recent markups that we have seen 
in the budgeting process. We really appreciate that.
    The Chairman. I would really emphasize again, given the 
leverage and joint nature of these programs, that we do 
everything we can to fund them. I will work on that from the 
appropriations side with you but we need to make sure they are 
funded.
    Mr. Weahkee. Thank you, sir.
    I am also meeting with Representative O'Halleran from 
Arizona later this week on the same topic.
    The Chairman. I believe that needs to be a part of the 
request and that we need to do everything we can to make sure 
it is appropriated funding for these facilities. I think it has 
to be a priority.
    Mr. Weahkee. Absolutely, expansion and access to care for 
all of these new facilities.
    The Chairman. When the tribes take the initiative to build 
the facility and pay for it, we just have to find a way to fund 
it, particularly for something like health care on the 
reservation. It is a huge priority.
    I will wrap up there. Again, I appreciate the progress that 
you have made. As I say, we will be doing this again in six 
months.
    I will now turn to the Vice Chairman.
    Senator Udall. Thank you, Mr. Chairman.
    BIE has only existed as a standalone bureau since 2006. It 
was previously a part of BIA and that legacy can still be seen 
in the way the many administrative tasks are divided between 
the two agencies. In fact, many of GAO's recommendations to 
improve Indian education will require BIA to work hand in hand 
with BIE.
    Yet, Mr. Black, I noticed your testimony here today and in 
May only focused on Indian energy. How engaged has BIA 
leadership been with the review of GAO's Indian education 
recommendations?
    Mr. Black. I think Mr. Dearman can confirm for me or with 
me that the Bureau of Indian Affairs has been engaged and 
working with them in those areas where we do have cross 
responsibilities and safety is a good example.
    We are working very closely with our Bureau of Indian 
Education and the BIA safety individuals to ensure that we are 
having regular meetings and developing the necessary standards 
and policies to be able to address the safety inspections. That 
is just one example.
    Then in the area of facility management, we are working 
with the Deputy Assistant Secretary for Management's office as 
well and our facility management operations, working real close 
with Tony and his staff to make sure we are addressing their 
needs as well.
    Senator Udall. Mr. Dearman, do you believe that BIA has 
taken the issue surrounding Indian education outlined in the 
High Risk Report seriously or could they be doing more?
    Mr. Dearman. Vice Chairman, yes, I do believe they are 
taking it seriously. They have been at the table with us at all 
of our meetings and have been actively engaged in improving our 
system based on GAO's recommendations.
    Mr. Black touched on a lot of different areas but even in 
the contract area, the contract area for purchasing books and 
things like that, we have to work with BIA as well. BIA has 
really been involved.
    Senator Udall. The same question to Ms. Emrey-Arras, do you 
believe BIA has taken the issues surrounding Indian education 
outlined in the High Risk Report seriously or could they be 
doing more?
    Ms. Emrey-Arras. Yes, we do, and we think that their focus 
on school safety is particularly important given the health 
hazards we have identified in schools in the past. We think 
that continued collaboration is essential to resolving those 
recommendations and ensuring safe schools for these children.
    Senator Udall. One coordination issue between BIE, BIA and 
DOI I have heard about recently relates to SIPI, one of the two 
federally-operated tribal colleges that happens to be located 
in my home State of New Mexico.
    They have faced many issues getting timely BIA and DOI 
signoff on contract procurement and staff hiring approvals. Now 
I have learned these delays could cost the school its 
accreditation and potential grant funding.
    Mr. Black, was your office aware of these delays and how do 
they impact the SIPI school community?
    Mr. Black. Mr. Dearman has made me aware that there have 
been some issues at SIPI that we have been trying to address, 
working, again, between BIA and the department, particularly on 
the hiring situation. We have had approval to do the hiring at 
SIPI and that is currently in the recruitment process.
    Anything further related to that, I would have to pass off 
to Tony.
    Senator Udall. What can be done on your end to resolve 
these pending approvals in a timely manner? What can your 
office do to make sure these types of delays do not happen 
again?
    Mr. Black. Part of that is I can always go back to 
communication, Senator, to make sure we have the proper 
protocols in place to make sure we are communicating these 
issues and the right people are getting the right information.
    Senator Udall. Mike, as you know, tribal energy sovereignty 
is a goal that we need to strive for. Consider these numbers. 
While reservations account for 2 percent of the Nation's land 
mass, they hold 5 percent of the Nation's potential renewable 
energy resources.
    The Department of Energy estimates that wind power from 
tribal lands could satisfy 32 percent of the total U.S. 
electricity demand.
    GAO issues a number of reports on this topic over the 
years, yet the same problems continue to arise, BIA's failure 
to coordinate, inadequate workforce numbers and training, and 
outdated technology.
    We heard from GAO that BIA is addressing its 
recommendations but only for conventional energy production. 
Why is that and what is BIA doing to assist tribes with the 
development of renewable energy?
    Mr. Black. The impetus of some of the reports has been more 
on the conventional but we are not ignoring the renewable 
energy or the wind side as well. As more and more tribes become 
interested in bringing those things to our attention and our 
table, we are working with them closely.
    The HEARTH Act is a good example that allows tribes to 
utilize some of the leasing tools in order for the development 
of renewable resources. We are working to make sure that our 
staff is aware. That is going to become another function of the 
Indian Energy Service Center. As more and more of the renewable 
energy programs become active, we will be utilizing the service 
center to provide training, resources and applicability.
    Senator Udall. Good. I hope you keep pushing on both sides 
there.
    Mr. Chairman, I have one more question.
    Admiral Weahkee, last month, you issued Circular 17-11 to 
set national patient appointment wait time standards for IHS 
facilities. These standards focus on how long it takes to 
secure an appointment but I did not see any reference to wait 
times or how long it takes a patient to be seen once they 
arrive at an IHS facility.
    I know several service units within the IHS Albuquerque 
service area already have patient wait time tracking systems in 
place. In fact, I believe many service units report patients 
being able to complete their full appointment from the sign-in 
to the doctor's visit to pharmacy pickup in under an hour.
    Melissa, has the GAO evaluated these efforts to address 
patient wait times? If so, does GAO believe they will resolve 
the issues uncovered in the 2016 report?
    Ms. Emrey-Arras. I will defer to my colleague, the Director 
in the health care area, Kathy King.
    Senator Udall. Thank you, Kathy.
    Ms. King. We have not had a chance to evaluate them yet 
since they just went into effect. It would take some time for 
us to see how they are implemented. Then we would have a chance 
to evaluate.
    Senator Udall. Okay. Focusing now on Admiral Weahkee, how 
will the new standards in Circular 17-11 and the new wait times 
tracking software related to it interact with local service 
units who already have metrics in place?
    Mr. Weahkee. We see these metrics as trigger points for 
those sites that already have systems in place and may even 
have better metrics than those that have been identified as the 
benchmarks. We definitely do not want to impact negatively on 
those benchmarks.
    We also see these as preliminary metrics. As you have 
identified, through the emergency department or other primary 
care visits there are other parameters that we should be 
measuring like dental visits and behavioral health visits.
    In terms of how it impacts those sites that are already 
using a system, there will be no impact but if they go beyond 
that 28 day or 48 hour trigger, they will be getting questions 
about what is going on and what help they need to make sure we 
are meeting those thresholds.
    Senator Udall. Good. This potential disconnect between 
service units, service areas and national IHS efforts on the 
issue of patient wait times is not unique. GAO identified 
inconsistent policies between levels of IHS leadership as an 
overarching issue with the service.
    Admiral Weahkee, what is IHS doing to make sure that 
innovations and best practices at the local level, particularly 
in tribally-operated facilities, are shared with the larger 
system and not stifled?
    Mr. Weahkee. Thank you for the question, Senator.
    One of the tools we are using is what we call our improving 
patient care collaborative, an opportunity for sites to share 
in an email format what is going well. Somebody may ask for a 
policy on a given topic and get that response from another 
site.
    I definitely agree that sometimes the best innovation and 
more often than not, the innovation happens at the front lines 
by the staff doing the work. In that regard, the IPC 
collaborative is one good example of that information being 
shared across the system.
    The other thing we are doing is reaching out to our tribal 
partners and hearing what they have. We made a recent visit to 
Alaska to look at the Nuka Institute. We will be making a visit 
out to Oklahoma next week and have the opportunity to hear from 
Cherokee Nation about some of the innovative work they are 
doing in program planning around recruitment and retention and 
developing their own home grown training programs for medical 
providers.
    We are really excited about some of the innovation that is 
coming out of our Indian partners.
    Senator Udall. Thank you. That is very encouraging.
    As I sum up, Mr. Chairman, let me say I fully support your 
effort to have the parties, the agencies and agency heads 
return here in six months to see how they have done on the 
recommendations and see which things we are closing out and 
what kind of progress we are making.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you, Vice Chairman Udall.
    Again, thank you to our witnesses for being here today. We 
will have you back in six months and again review the progress 
on all of these important issues. I do appreciate the work that 
has been done while recognizing there is a lot more to do and 
that it is very important for Indian Country. Thanks to all of 
you.
    For members of the Committee, if they have additional 
questions, they can submit them for the record over the next 
two weeks.
    Again, thank you. With that, this hearing is adjourned.
    [Whereupon, at 4:18 p.m., the Committee was adjourned.]

                            A P P E N D I X

 Prepared Statement of Hon, James R. Floyd, Principal Chief, Muscogee 
                             (Creek) Nation
    The Muscogee (Creek) Nation is the fourth largest tribe in the 
United States with more than 85,000 citizens across the United States 
and has jurisdiction over more than eight counties. Under the Indian 
Self-Determination and Education Assistance Act (ISDEAA), the Nation 
has assumed authority to provide health care, social and realty 
services, public safety, natural resources management, infrastructure 
development and repair and economic development. Additionally, MCN 
operates the Eufaula Dormitory, a peripheral dormitory, through a 
Bureau of Indian Affairs (BIA) grant. As such, the Nation was very 
concerned when the Government Accountability Office (GAO) included the 
BIA, Bureau of Indian Education (BIE), and Indian Health Service (IHS) 
programs in their 2017 High Risk Report.
    On behalf of the Nation, I write to express my appreciation for the 
oversight that Senators and the Senate Committee on Indian Affairs have 
provided while seeking solutions and closure of the GAO 
recommendations. The Committee's partnership and persistence is 
critical while the three agencies work to correct concerns highlighted 
by Senators and tribes. I have also provided a few comments on the 
updates provided during the September 13th oversight hearing that are 
of interest to MCN.

    The Trust Asset and Accounting Management System (TAAMS) does not 
include functions necessary to adequately track and record issues 
related to restricted land.

    MCN utilizes the TAAMS to preform various realty functions, 
including land title and record services. T AAMS has been instrumental 
in improving record keeping and modernizing realty functions and the 
GAO recommendations would continue to increase the helpfulness of the 
system overall. However, when the BIA initially developed TAAMS it did 
not include functions to adequately document restricted land ownership 
and the unique situations which rise from restricted land status. As a 
result, MCN's Realty Office utilizes electronic and hard copy record 
keeping practices in order to properly track ownership, leases and 
other land use agreements on behalf of the Nation's restricted land 
owners. MCN would recommend that the Committee continue to monitor the 
BIA's progress in expanding the functionality of the TAAMS.

    Tribes consistently provide feedback to IHS regarding the 
Purchased/Referred Care (PRC) Funding Allocation Methodology.

    Along with many other tribes and tribal organizations, MCN provides 
regular feedback regarding the PRC program implementation and funding 
allocation methodology. In fact, shortly after the passage of the 
Patient Protection and Affordable Care Act (ACA), tribes weighed 
whether the PRC allocation should be updated to reflect new factors 
that changed as a result of health care reform. However, tribal 
leadership did not believe the impact of the legislation would be 
measurable in Indian Country for quite some time. Since those initial 
discussions, tribes have regularly reviewed the allocation methodology 
and data regarding implementation of the law across the country. Rear 
Admiral Weahkee was correct in his statement that, nationally, there is 
tribal consensus that the methodology should not be changed. As such, 
MCN was startled when GAO claimed that IHS had not worked cooperatively 
toward implementing their PRC recommendations.
    Though the system is imperfect, the failure is not entirely IHS's 
to bear. Failure to adequately fund the Indian health system has 
resulted in the need to ration care that cannot be provided by Indian, 
tribal or urban health programs. PRC is the funding methodology and 
medical priority system that IHS utilizes to ration that care. Tribes 
have worked collaboratively with IHS to develop this methodology using 
several data points. The current-methodology includes data and a system 
of weighting data that consider the care available to Indians across 
all IHS areas. GAO's scope of work and recommendations, though 
thoughtful, do not apply the same level of expertise tribes have 
developed regarding the allocation of the entire IHS budget. 
Additionally, the GAO's recommendations do not accurately capture or 
consider the various other streams of funding that are distributed 
using other data points. MCN would be happy to provide additional 
information and insight regarding the methodology development and 
agrees with the national consensus that the PRC methodology does not 
have to be altered at this point in time.
    The Nation remains committed to providing the best possible 
services under its ISDEAA agreements and looks forward to working with 
the Committee members, Administration leadership, and others to 
implement solutions that improve access to and quality of those 
services. I appreciate the opportunity to provide the comments above 
and your continued efforts to oversee the trust responsibility 
relationship.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Steve Daines to 
                          Melissa Emrey-Arras
    Question 1. Ms. Emery-Arras, exactly how many recommendations to 
the Indian Health Service were open when the Government Accountability 
Office added the agency to the high risk list?
    Answer. When we issued our 2017 High Risk report, there were 13 
recommendations to HHS that were unimplemented.

    Question 2. And how many have been fully implemented?
    Answer. Since our 2017 High Risk report was issued, IHS has 
implemented three of these recommendations.

  <bullet> In response to a recommendation in GAO-13-272, to monitor 
        the Purchased/Referred Care (PRC) program access to physician 
        and other nonhospital care, and to assess how the PRC payment 
        rates may impede the availability of care, IHS developed an 
        online PRC Rates Provider Tracking tool. The use of this tool 
        enables PRC programs to document providers that refuse to 
        contract for their most favored customer rate or accept the 
        PRC. On October 3, 2017 IHS officials met in-person with GAO 
        and provided a demonstration of the PRC Rates Provider Tracking 
        Tool.

  <bullet> In response to a recommendation in GAO-16-333, IHS developed 
        specific standards for patient wait times and published them to 
        the IHS Indian Health Manual website in August 2017.

  <bullet> In response to a recommendation in GAO-17-181, in December 
        2016, the former IHS Principal Deputy Director, issued a 
        directive for all HQ and Area Offices to develop succession and 
        contingency plans to identify potential leaders or senior 
        managers to fill critical positions in the short- or the long-
        term, and identify individuals available immediately for 
        unexpected absences or departures. The IHS Office of Human 
        Resources issued guidance, instructions, and a template for 
        identifying key leadership positions in the HQ Offices, Area 
        Offices, and Service Units. The instructions also included a 
        requirement to conduct a skills-gap analysis to assess any 
        identified employee's current competencies against those needed 
        for the target leadership position.

    Question 3. And how long has it been since the earliest of these 
recommendations were made to IHS?
    Answer. In our February 2017 High Risk report, we cited 2 
recommendations from a fiscal year 2011 report on the accuracy of data 
used for estimating PRC needs, with which HHS agreed. These 
recommendations remain unimplemented.

    Question 4. Would you say that period of time is enough to have 
implemented these recommendations?
    Answer. GAO tracks and publicly reports annually on the percentage 
of recommendations made 4 years ago that have since been implemented. 
We use a 4-year reporting window because it generally takes 4 full 
years to implement some of our recommendations. In fiscal year 2015, we 
reported that 79 percent of recommendations made in fiscal year 2011 
had been implemented. We believe the recommendations that we have made 
to IHS could have been implemented within this timeframe and we will 
continue to monitor IHS's efforts to implement our recommendations in a 
timely manner.

    Question 5. I understand that responsiveness to GAO from IHS on the 
status of the recommendations has been an issue. Could you describe 
what those challenges have been?
    Answer. While IHS's responsiveness to our recommendations has been 
an issue in the past, since we added the agency to our High Risk list, 
agency officials have become more responsive. For example, in October 
2017, GAO and IHS officials met in person to discuss all unimplemented 
recommendations to determine possible implementation solutions. After 
this meeting, we were able to close one recommendation as implemented. 
In addition, we have received several e-mails in the past few months 
providing information documenting steps that IHS officials have taken 
to implement our recommendations. We hope to continue this 
collaborative relationship as the agency moves forward with 
implementing other recommendations.

    Question 6. I also understand that in multiple instances, when IHS 
stated that they've implemented various recommendations, the 
documentation has been subpar. Can you provide a couple examples of 
when that evidence was insufficient?
    Answer. In the past, IHS officials have requested that we close 
recommendations as implemented but provided no evidence. For example, 
IHS officials informed us that the agency developed a requirement for 
contingency and succession planning for key leadership positions at 
headquarters and area offices, but did not provide documentation of 
their efforts.
    In addition, officials have sometimes provided documentation of 
their efforts to implement recommendations, but the documentation was 
insufficient to determine what steps had been taken. For example, when 
attempting to document the development and use of the PRC Rates 
Provider Tracking tool, officials provided a link to a secure area of 
the IHS website that was not available to GAO staff. When informed of 
this, IHS officials sent a screenshot of the webpage that showed the 
button for the tool in the lower left hand corner of the site. This was 
not sufficient to determine what the agency had done to implement the 
recommendations.
    However, IHS officials have since sent sufficient documentation of 
their contingency and succession planning efforts, as well as the PRC 
Rates Provider Tracking tool. The inperson meeting in October was 
particularly helpful and allowed us to explain the level of 
documentation that we need in order to consider a recommendation 
implemented. During this meeting, IHS staff demonstrated the tracking 
tool, and showed us a user guide, the data entry page, and an example 
of a provider refusals report.

    Question 7. I understand there was one instance in particular--and 
it's particularly mindboggling--where IHS actually sent a screenshot of 
a corner of a website as documentation of their having implemented the 
recommendation. Could you share what happened there?
    Answer. See answer to question 6 above.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                              Tony Dearman
BIE Student Outcomes Data
    Question 1. The most recent school and Bureau accountability data 
provided on the BIE website
    dates to SY2012-2013. The Committee is unaware of any other 
locations where the Bureau might have published accountability data for 
the three school years completed sinceSY2012-2013 concluded and 
required under Section 1111 of the Elementary and Secondary Education 
Act through August 1, 2016.
    Please provide a copy of all statutorily required school 
accountability data for SY2013-2014, SY2014-2015, and SY2015-2016. If 
this information is not currently available, please provide a firm 
timeline of when such information can be made available to the Chairman 
and the Vice Chairman.
    Answer. Available data has been reported to the U.S. Department of 
Education's (ED) EDFacts data collection system. The Bureau is working 
to update and post additional, required public reporting on school 
accountability. However, most information has not yet been aggregated 
and remains partially incomplete. Recently, leadership has refocused 
attention to increasing data-driven decisionmaking across the Bureau 
through improved data collection. As of 2018, the Bureau has hired an 
Accountability and Assessment Supervisor as well as several Education 
Research Analysts and has filled six Native American School Information 
Specialists (NASIS) positions. These personnel are specifically focused 
on data by expanding technical assistance to schools as well as 
improving the Bureau's collection and use of key data metrics critical 
to supporting the needs of students attending BIE-funded schools.

    Question 2. Title I of the Every Student Succeeds Act (ESSA) 
requires states to design and implement an accountability system to 
measure school quality and performance in consultation with a variety 
of stakeholders. The Department of Education (ED) indicates on its 
website that BIE, acting in its capacity as the State Education Agency 
(SEA) for BIE-funded schools, provided notice of intent to submit its 
state accountability plan to ED on September 18, 2017. Yet, as on the 
date of this hearing, the BIE's webpage on the Bureau's ESSA State Plan 
is completely blank.
    What is the status of the BIE state plan? Please provide a summary 
of any BIE's coordination between BIE and ED on this issue and a 
description of all relevant consultations undertaken by BIE to date on 
development of a state accountability plan.
    Answer. To meet its obligations under the Elementary and Secondary 
Education Act of 1966, as amended by the Every Student Succeeds Act 
(ESEA) and develop a State Plan, the BIE will amend its existing 
standards, assessments, and accountability regulations through 
Negotiated Rulemaking (NRM); and solicit stakeholder and tribal input 
through consultation regarding the BIE State Plan. At a December 8, 
2016 meeting between BIE and ED, Education officials expressed a view 
that the State Plan under ESEA was optional for the BIB. BIE Director 
Dearman announced the BIB would move forward with developing a State 
Plan, as approved through rulemaking, as a means to facilitate a 
transition to ESEA and ensure the development of a coherent federal 
education system across the twenty-three (23) states in which BIE 
facilities operate. The BIE notified ED via email on January 7, 2017 
that it would submit a State Plan.
    To meet its ESEA obligations and develop a State Plan, the BIE 
will: (1) amend its existing standards, assessments, and accountability 
regulations through Negotiated Rulemaking (NRM), and (2) solicit 
stakeholder and tribal input through consultation regarding the BEE 
State Plan. On November 9, 2015, the BIE published a notice of intent 
(80 FR 69161) requesting comments and nominations for tribal 
representatives for the NRM. Upon transition between Administrations, 
the initial formulation of the NRM was postponed in order to provide 
incoming Department staff adequate time to review prior work. As of 
August 2017, the BIE was provided clearance to move forward with re-
initiating the Committee and working and consulting with stakeholders 
to determine membership and subsequent steps.
    The negotiated rulemaking committee was re-advertised in Federal 
Register notice (82 FR 43199) soliciting nominations on September 14, 
2017, with a deadline for submission of nominations by October 16, 
2017. The nominations received were reviewed by Department and BIE 
officials and selected members will be announced through a notice in 
the Federal Register, which will be available for public review and 
comment. After such time, a subsequent Federal Register Notice will 
announce the final NRM members and initial meeting dates.
    Ultimately, the NRM will recommend revisions to existing 
regulations (25 CFR Part 30), replace the No Child Left Behind Act 
(NCLB) Adequate Yearly Progress regulatory language, and implement the 
Secretary's statutory responsibility to define the standards, 
assessments, and accountability system, consistent with the ESEA The 
BIE and ED consult and work together on a range of Indian education 
related issues, through the departments' interagency work group that 
meets bi-weekly and through direct communication.

    Question 2a. Please provide an overview of BIE,'s efforts to comply 
with ESSA as a whole and outline how the Bureau has worked with ED to 
ensure full compliance moving forward.
    Answer. To meet its obligations, the BIE will: (1) amend its 
existing standards, assessments, and accountability regulations through 
negotiated rulemaking, and (2) solicit stakeholder and tribal input 
through consultation regarding the BIE State Plan. The BEE has elected 
to adopt a State Plan that will work to improve the BLE's support of 
Bureau-funded schools. Through tribal consultation and solicitation of 
stakeholder feedback, the BIE will ensure ESEA requirements are met.
    Ultimately, the BIE will carry out its obligations under the ESEA 
through rules and regulations determined under the NRM, which will 
recommend revisions to the existing regulations (25 CFR Part 30) to 
replace the NCLB Adequate Yearly Progress regulatory language and 
implement the Secretary's statutory responsibility to define the 
standards, assessments, and accountability system, consistent with the 
ESEA.

    Question 3. The Navajo Nation reports to my Office that the BIE is 
currently not efficiently transferring student data required under a 
signed memorandum of understanding between the Tribe and the Bureau. Is 
BIE working with the Navajo Nation to ensure the spirit and letter of 
the MOU are followed?
    Answer. BIE has and continues to work with the Navajo Nation tribal 
government as well as Department of Dine Education (DODE) on an ongoing 
basis as the tribe and its education agency work to clarify their 
preference for outreach with the BIE,. For instance, BIE Associate 
Deputy Director (ADD) of Navajo Schools has worked to share Partnership 
for Assessment of Readiness for College and Careers (PARCC) data for SY 
2014-2015 (NM only Navajo schools), 2015-2016 and 2016-2017. The Navajo 
ADD offices have continued to support the Navajo Nation with ongoing 
NASIS data training with meetings held as recently as October 2017. The 
Navajo Nation is now in the process of amending their Data Agreement to 
include Personally Identifiable Information (PII) assurance 
documentation, which was shared with the President of the Navajo Nation 
at the NIEA convention held in early October 2017.

    Question 3a. How is BIE ensuring that tribes with members enrolled 
in BIE-funded schools have timely access to information necessary to 
track student outcomes?
    Answer. The BIE is provided with short-cycle assessment data by 
Northwest Evaluation Association (NWEA) after each testing window which 
informs instructional practices and student outcomes. Such data are 
accessible at school sites by instructors and school leadership. The 
test results are normally sent to each school site by the vendor, 
Measured Progress/Smarter Balance, in late June.
    In regards to summative data, the BIE has access to state 
assessment data through schools that receive such information directly; 
the BIE does not have direct access to all state assessment data and 
often must request the data from individual schools. Although BIE has 
Memoranda of Agreement in place for sharing state assessment data for 
many schools this is not the case for all states in which the BIF., 
operates. As noted in a previous response, the BIE is currently in the 
process of establishing a Negotiated Rulemaking Committee that will, 
among other things, determine if the BIE should establish its own 
unique accountability system under the ESEA, which could improve the 
BIE's data disaggregation and dissemination capabilities through a 
uniform system, or continue to operate and serve schools based on the 
23 states in which the schools are located.

    Question 3b. What mechanisms within BIE are in place to lift tribal 
accountability to the level of the federally-mandated accountability 
plans referenced in question (2) above?
    Answer. Indian Tribes may seek waivers from the BIE's standards, 
assessment and accountability system requirements, under ESEA section 
8204(c). BIE continues to partner with ED to facilitate such waiver 
requests and provide technical assistance and support to ensure 
successful transition of such authority to a Tribe. As of 2018, the 
Navajo Nation and Miccosukee Tribe have waivers approved by the two 
agencies, which supports local control of education and provides Tribes 
the flexibility to better meet their local needs. For example, Navajo 
Nation's agreement includes an alternative system of accountability for 
schools that allows BIE-funded schools that serve the Tribe but are 
located in three different states to operate under a uniform system. 
Currently, BIE Education Resource Center staff provides ongoing 
technical assistance to tribes with such waivers.

    Question 3c. Does BIE have any other student outcome related data 
(for example--graduation rate trends, or absenteeism trends in BIE 
schools) that it can share? If so, please provide it here or provide a 
firm timeline of when such information can be made available to the 
Chairman and the Vice Chairman.
    Answer. The Bureau is working to bring recent data sets up to date. 
Currently, an analysis of longitudinal data trends is unavailable until 
such data strands are collected and verified. However, the Bureau has 
enclosed the following 2015 Bureau of Indian Education Report on 
Student Achievement and Growth from the Northwest Evaluation 
Association for the Committee's review. Its results suggest that BIE 
students have shown some improvements over time in achievement and 
growth rates, most notably in mathematics and for students attending 
earlier grade levels. However, gaps persist and BIE remains committed 
to improving service delivery that will help narrow the gap for 
students attending Bureau-funded schools.
IT Infrastructure Challenges
    Question 4. One issue BIE school-level leadership has repeatedly 
raised involves challenges meeting the Bureau's data reporting 
requests. For example, the administration team at Southwestern Indian 
Polytechnic Institute (SIPI) never received the credentials they needed 
to access BIE reporting software. Several folks from the school reached 
out to regional BIE and BIA staff--who are located in an office right 
down the road in Albuquerque--but they never received a response. Can 
you commit to working with SIPI to resolve this systems access issue?
    Answer. Yes.

    Question 4a. How is your office working to make sure BIE schools 
have sufficient technical assistance to fully utilize reporting 
software like Maximo?
    Answer. BIE has offered technical assistance and training 
opportunities to BIE schools regarding the use of the Maximo system via 
five four-day sessions held in Albuquerque, NM as well as across the 
country at regional training.

    Question 4b. How is your office working to make sure data reporting 
requirements aren't duplicative or unnecessarily burdensome for tribes 
and schools staff?
    Answer. BIE leadership does not want such reporting requirements to 
impede school-level functions or create unnecessary burdens on local 
staff. As such, BIB leadership is working to ensure compliance and 
technical assistance teams visit schools in a coordinated manner to 
increase efficiency in compliance monitoring while decreasing the 
number of site visits held each year.

    Question 5. GAO has found that BIE's student attendance system had 
no way to note that an absence was caused by transportation issues. BIE 
is working to update the data system related to this issue; but this is 
just one small piece of a larger data and IT issue facing BIE. When 
will the transportation-related absentee tracking issue identified by 
GAO in May be fully implemented?
    Answer. BIE tentatively agreed to GA0-17-423: Tribal Transportation 
recommendation 7. The BIE is currently exploring the addition of a 
field within NASIS to capture whether an individual student's absence 
is due to inclement weather or road conditions. The BIE will consult 
with the NASIS vendor to discuss the feasibility and cost involved for 
this additional requirement and consider implementation of 
recommendation 7 based on this information and available resources.

    Question 5a. Please list and explain other data and IT issues that 
BIE is currently working to improve.
    Answer. The BIE has formed a bureau-wide working group to improve 
its data collection, management, and reporting. The working group was 
formed in early 2017 and was initially tasked with bringing outdated 
EdFacts data up-to-date. The working group is now performing a bureau-
wide data audit and is in the early stages of creating policies and 
procedures designed to improve the Bureau's collection, management, and 
reporting of data.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                            Michael S. Black
Inter-Agency Coordination: Impact of Zinke Reorganization on the Indian 
        Energy Service Center
    Question 1. The GAO reported that the BIA continues to fail in 
coordinating with other agencies that play a role in the development of 
Indian energy, like Fish and Wildlife Service, the Army Corps of 
Engineers, and the Environmental Protection Agency. As a result, the 
Service Center does not serve as the central point of collaboration/
coordination as originally envisioned. Potentially compounding matters, 
Secretary Zinke floated a proposal at a House Appropriations hearing to 
reorganize the Department into a system modeled on the military's joint 
command model that would shift employees from D.C. and regional 
headquarters offices to field locations. There are concerns that 
Secretary Zinke's proposed reorganization of Interior's sub-agencies 
will further complicate or delay attempts to better coordinate within 
Interior the permitting and approval of Indian energy projects. In 
addition, tribes have reported that Interior's consultation with them 
on these moves is limited, if it happens at all. How will the proposed 
reorganization of the Department of the Interior affect ongoing efforts 
to make sure agencies are coordinating with the Service Center?
    Answer. The Indian Energy Service Center (IESC) is a multi-agency 
office comprising Bureau of Indian Affairs (BIA), the Office of Natural 
Resource Revenue (ONRR), and the Bureau of Land Management (BLM) staff 
components that provide support of Indian energy development on Indian 
lands. The Department will continue efforts to improve coordination 
among bureaus in support of tribal management of energy resources.

    Question 1a. The Indian Energy Service Center was a result of 
robust collaboration between Interior and tribes. To the extent the 
proposed reorganization impacts the Service Center, will the BIA 
consult with tribes to limit adverse impacts to coordination?
    Answer. The Department does not anticipate any adverse impacts to 
coordination and services resulting from the proposed reorganization. 
The BIA has initiated discussions with Indian Country and will continue 
with formal tribal consultations regarding any proposed adjustments to 
the regional field organizations serving the BIA and BIE.
IT Infrastructure: Energy Lease Review and Response
    Question 2. In its 2015 report, GAO found that BIA did not have a 
clear system for or the data needed to track its review and response 
times for the approval of leases, rights-of-way, and appraisals for 
energy development on Indian lands. The BIA must be able to track its 
review and response times to ensure the approval process is efficient, 
transparent, and meets the needs of tribes that seek to utilize their 
natural resources.
    It is absolutely essential that the process for tracking review and 
response times is comprehensive. Can you confirm that the process will 
include all documents that need to be approved before and after 
resource development can occur?
    Answer. We have made progress on this issue, and tracking some data 
from leases, rights-of-way, and mineral-related agreements 
(Communitization agreements and Unit agreements) is in place for BIA. 
This remains an ongoing process.
IT Infrastructure: GIS Mapping of Indian Energy
    Question 3. GAO identified issues with outdated and deteriorating 
equipment, technology, and infrastructure at BIA, which has led to the 
inefficient management of Indian energy resources. One recurring 
problem for the BIA, and one that has existed for years, is inadequate 
information about ownership over surface and mineral rights. The BIA 
has stated its intent to develop a national dataset of all Indian land 
tracts and boundaries, but has not provided a timeline-or even what 
resources are necessary-to complete this survey. GAO found, for 
example, that some tribes couldn't pursue development opportunities 
because BIA did not have an inventory of the tribe's energy assets 
available. GAO recommended that Interior incorporate mapping technology 
that would greatly increase the agency's efficiency. Can you describe 
how Interior has updated its mapping technology?
    Answer. In response to the Government Accountability Office's May 
2017 Report, BIA has taken steps to integrate geographic information 
system (GIS) technology into the Trust Asset and Accounting Management 
System (TAAMS).
    Version 1.0 of TAAMS ``Map Viewer'' was placed into production and 
is currently available for use as of August 31, 2017. A demonstration 
of the capabilities of the Map Viewer was performed on September 14, 
2017, for GAO program auditors. On September 13, 2017, the Assistant 
Secretary reported to the Senate Committee on Indian Affairs on this 
accomplishment and submission of the closure package to the GAO on this 
recommendation.
    Program level staff and tribes are now able to view and print maps 
from TAAMS that can be shared with landowners and enable managers to 
make informed decisions regarding energy resources in a timely manner.
    The Map Viewer, in conjunction with the TAAMS ownership and 
encumbrance reports, provide program level managers with the 
information regarding title and restrictions for making timely energy 
resource decisions. There are 193,487 Indian land tracts that are 
viewable through the Map Viewer and 21,280 tracts which must be 
converted into a spatial representation as resources permit. Please 
refer to the table below for statistics by Region.

------------------------------------------------------------------------
                                                        Tracts Remaining
                                                          that Require
                                    Tracts Visable in       Spatial
            BIA Region               TAAMS Viewer  8/   Conversion to be
                                         30/2017       visable in Viewer
                                                           8/30/21017
------------------------------------------------------------------------
Eastern (LAC 0-99)                                141                200
Northwest (LAC 100-199)                        26,410              5,577
Rocky Mountain (LAC 200-299)                   46.804              3,951
Great Plains (LAC 300-399)                     61.063              2,437
Midwest (LAC 400-499)                           7,844              3,111
Pacific (LAC 500-599)                           2,878                844
Western (LAC 600-699)                          12.664                859
Southwest/Navajo (LAC 700-799)                  7.228              1,330
Southern Plains (LAC 800-899)                   9,818                862
Eastern Oklahoma/Alaska (LAC 900-              18.637              2,109
 999)
------------------------------------------------------------------------
    Totals                                    193,487             21,280
------------------------------------------------------------------------

    Additionally, new land area boundary representations (Reservation, 
Rancheria, Public Domain Allotment, etc.) are under development and are 
made viewable in the Map viewer as they are completed. Nationally, 
boundary data for the current 333 federally recognized tribal land 
areas, referenced in the following table, are expected to be completed 
by Spring of FY18.

------------------------------------------------------------------------
                                                       Total Land Area
                      Region                        Boundaries by Region
------------------------------------------------------------------------
Rocky Mountain                                                         7
Midwest                                                               37
Northwest                                                             45
Great Plains                                                          16
Pacific                                                              105
Eastern                                                               30
Eastern Oklahoma                                                       2
Southern Plains                                                        6
Southwest                                                             26
Western                                                               56
Navajo                                                                 3
------------------------------------------------------------------------
    Total                                                            333
------------------------------------------------------------------------

    The procedure for developing the data is described in the Indian 
Land Tract and Land Area Boundary Mapping Training Guide. The BIA plans 
to continue to advance the Map Viewer to include other nationally 
stewarded and standardized geospatial datasets to support energy 
development.

    Question 3a. How do initiatives like updating IT infrastructure and 
creating new planning processes impact the resources you have available 
for providing services to tribes?
    Answer. Initiatives for updating IT infrastructure are important 
and required to address limited and aged IT network infrastructure, 
which impact the BIA resources for providing timely services to tribes. 
TAAMS services, for example, are often delayed due to high usage, 
limited data line capacity, remote locations and restricted access. 
Further, planning processes such as developing national geospatial 
databases with rigorous standards are needed but are resource intensive 
and require expertise in GIS.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                          RADM Michael Weahkee
Inter-Agency Coordination
    Question 1. In 2015, the Centers for Medicare & Medicaid Services 
(CMS) withdrew its accreditation of the Omaha-Winnebago IHS Hospital in 
Nebraska. At the GAO High Risk hearing in June, IHS Deputy Director 
Buchanan testified that the hospital would be reaccredited within a 
matter of months. The loss of CMS certification is both a safety 
concern and a funding issue. What is the current CMS accreditation 
status of the Omaha-Winnebago IHS Hospital?
    Answer. One of the Indian Health Service (IHS) priorities is to 
bring the Omaha-Winnebago Hospital (OWH) into full compliance with the 
Centers for Medicare & Medicaid Services (CMS) standards. The hospital 
is not currently CMS-certified. Filling critical hospital leadership 
positions is essential to achieving and sustaining CMS accreditation. 
We hired a Clinical Director, Chief Nurse Officer, and Quality Manager 
for OWH in recent months. We want to ensure the OWH is fully prepared 
before requesting CMS return for a re-survey, and we continue to assess 
progress on an on-going basis.

    Question 1a. Are you working with CMS to address the cited 
deficiencies?
    Answer. The IHS Omaha-Winnebago Hospital continues to work 
diligently on quality improvement and patient safety, supported by 
technical assistance from Joint Commission Resources, to address 
quality improvement and patient safety requirements of CMS. The OWH 
will be going through a Joint Commission Resources unannounced survey 
in the coming weeks. Once successfully completed and OWH is determined 
to be fully prepared for a CMS survey, a re-certification application 
will be submitted.
Inter-Agency Coordination
    Question 2. During a series of site visits over the last year, the 
Albuquerque IHS Service Area reported to my staff that all Albuquerque-
area Service Units are deploying patient satisfaction surveys. Are 
other IHS Service Areas currently utilizing the same or similar patient 
satisfaction surveys?
    Answer. The Quality Framework Steering Committee established the 
Patient Experience of Care Survey working group to develop a 
standardized patient experience survey for IHS. In their pre-
development phase of work, the working group surveyed IHS facilities on 
the use of Improving Patient Care (IPC) survey instruments. Fifty 
percent (50 percent) of 34 responding facilities reported use of the 
IPC survey. The remaining respondents indicated use of Agency for 
Healthcare Research & Quality Consumer Assessment of Healthcare 
Providers & Systems (AHRQ CAHPS), Net Promoter, and Care and Health 
Outcomes (ECHO). A pilot of implementing the new Patient Experience 
Survey using electronic tablets was completed at four facilities in 
four IHS Areas in June 2017 and achieved excellent results for patient 
acceptability, usability, immediate access to survey results (locally 
actionable data), and staff workload (collecting and analyzing 
results). While IHS implements the new Patient Experience of Care 
Survey tool more broadly throughout the system, IHS continues to 
support Service Units' use of the IHS IPC Patient Satisfaction Survey 
tool to monitor patient perceptions of care.

    Question 2a. What is IHS doing to share and implement best 
practices, e.g., patient experience surveys, between Areas?
    Answer. The IHS shares information with participating Service Units 
via the IPC Program Portal and the Quality Framework Steering Committee 
hosts monthly webinars with all Area and Service Unit Quality Managers. 
In partnership with CMS, all IHS hospitals also participate in the 
Partnership to Advance Tribal Health (PATH), a single Quality 
Improvement Network (QIN)-Quality Improvement Organization (QIO) entity 
dedicated to improving quality of care by implementing best practices 
and identifying opportunities for operational improvement across IHS 
hospitals.

    Question 2b. Are you aware of any agencies (HRSA, HHS) that have 
expertise in developing key processes and policies aimed at improving 
patient experience? Are you working with those agencies to further 
develop IHS policies?
    Answer. IHS consulted with the SouthCentral Foundation (tribal 
health program) and the Agency for Healthcare Research and Quality 
(AHRQ), Office of the National Coordinator (ONC), Office of the 
Assistant Secretary for Health (OASH), Health Resources and Services 
Administration (HRSA), National Institutes of Health (NIH), and the 
Assistant Secretary for Planning and Evaluation (ASPE) to develop its 
standardized patient experience survey. IHS is aware of the HRSA Health 
Center Patient Survey (HCPS) and is also consulting with the Veterans 
Health Administration Patient Experience Office on strategies to 
optimize survey use.
IT and Data Infrastructure:
    Question 3. IHS uses a medical records system originally developed 
by the Veterans Affairs Department called the Resource and Patient 
Management System (``RPMS''). The VA will discontinue support of this 
system within the next few years, and tribes are concerned the IHS will 
have no structure or resources in place to implement or purchase a new 
system. It does not appear that IHS has a replacement plan to address 
this issue. What is IHS's plan to replace RPMS and will the Service 
need any additional budgetary resources to implement it?
    Answer. The IHS is undertaking a thorough and comprehensive 
analysis of alternatives that includes federal, tribal, and urban 
stakeholder input to consider all options for our Electronic Health 
Record (EHR) strategy. While commercial EHR solutions offer out-of-the-
box capabilities, the Department of Veterans Affairs (VA) and IHS 
systems are designed specifically to meet the unique needs of the 
agencies through customized medical applications, which can be more 
complex with a greater focus on longitudinal care over time than 
commercial EHR systems.
    As part of our engagement with tribal programs, the Muscogee-Creek 
Nation provided an in-depth briefing demonstrating implementation of 
their two commercial EHR systems. The Cherokee Nation briefed the IHS 
Chief Medical Officer on their commercial EHR system and we have been 
engaged in dialogue with tribal health programs from Alaska on this 
issue. We have been engaged with other tribal health programs or tribal 
health committees as well.
    Under the current arrangement, the IHS was able to adapt the VA 
software for use in our EHR system without having to expend funds on 
the development. The loss of the VA as a source of software code will 
likely have a budgetary impact on the IHS as we plan for the future.

    Question 3a. Could you please provide an outline of this plan and 
an estimate of IHS's IT needs over the next several years?
    Answer. The timing for IHS must remain largely in synchronization 
with the plans and the timeline of the VA. The VA's plans and timelines 
are still under development, but early indications point to a 7-8 year 
project timeline. With that in mind, the VA will need to continue its 
support for VistA for years, which means that the IHS will continue to 
have support for RPMS for years. The VA will still be releasing new 
patches for a while, but it will begin shifting away from new 
development to add functionality and start focusing narrowly on patches 
that address patient safety, and get the system ready for data sharing 
and archive.
    The IHS is currently developing a timeline that recognizes the end 
of support for the current EHR system and considers potential 
replacement. We estimate that a replacement would be a multi-year 
project. During the first year, the IHS would be heavily involved with 
exploration, comparison, and decisional activities. The second year 
would entail acquisition activities. Additional years would focus on 
rolling implementation at clinics and hospitals. The funding required 
will be determined in large part by the EHR system(s) chosen.

    Question 4. IHS also recently announced a new patient wait-time 
tracking addition to RPMS. They believe this expansion of RPMS will 
address one of GAO's unresolved recommendations from 2016. However, IHS 
told staff this new ``fix'' to track patient wait times might become 
obsolete as soon as the RPMS system goes out of use. How will the 
eventual replacement of RPMS impact the ability of IHS headquarters to 
monitor patient wait-times?
    Answer. IHS has focused on the use of business intelligence (BI) 
software to work alongside the Resource and Patient Management System 
Electronic Health Record (RPMS EHR) in order to systematically measure 
and track wait times. Business intelligence software can be utilized 
with any EHR. Any EHR transition would require updates in the linkages 
between the BI software and the EHR. IHS will include wait times 
metrics as a requirement for health information systems.

    Question 5. Several Service Units within the IHS-Albuquerque 
Service Area utilize a patient appointment program known as CQueque to 
electronically monitor patient wait times once an individual arrives 
for their appointment. These Units report to my staff that this program 
helps them self-audit staff performance and departmental progress 
towards patient experience goals.
    Do any Service Units or Areas outside of Albuquerque utilize 
similar ``sign-in'' software to track the efficiency of patient flows 
within IHS facilities or between difference departments within one 
facility?
    Answer. Yes. Efficiency and patient flow are important metrics in 
the Improving Patient Care (IPC) program. RPMS includes the ability to 
track appointment check-in, and data from RPMS can be utilized with or 
without business intelligence software to augment the measuring and 
tracking capabilities. Not all patient flow data is captured in the 
EHR, so IHS facilities use data both from within and external to the 
EHR to track efficiency and patient flow.

    Question 5a. Is IHS exploring a way to include tracking of similar 
wait-time information in its efforts to address patient experience and 
wait time issues identified by GAO in the series of reports listed in 
the High Risk Report?
    Answer. The IHS Improving Patient Care (IPC) Program addresses 
measurement and improvement efforts to shorten cycle time (start to 
finish of an appointment). IHS continues to explore opportunities and 
options for improving its capacity to measure cycle time and other 
wait-time metrics as a component of the patient experience of care. We 
are looking to extend the use of wait time standards to other services 
we provide such as dental and behavioral health.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                        RADM Michael D. Weahkee
    Question. The Gila River Indian Community has contacted my office 
concerning budget shortfalls in the FY 2018 budget that could delay the 
2018 opening of the newly constructed Red Tail Hawk Health Clinic. I 
understand that the Clinic has remained on budget for many years, and 
that IHS is aware of the 2018 opening date. What is the status of the 
facility for the next fiscal year?
    Answer. The funding of national priorities reflected in the FY 2018 
President's Budget required IHS to make choices between its programs 
and investments. The Indian Health Service (IHS) currently expects the 
Red Tail Hawk Health Center to be completed during January 2018. 
However, the FY 2018 request does not currently include staffing and 
operational funds for this new clinic.

                                  [all]
</pre></body></html>
